<html>
<title> - EMMETT TILL UNSOLVED CIVIL RIGHTS CRIME ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         EMMETT TILL UNSOLVED 
                         CIVIL RIGHTS CRIME ACT 
=======================================================================
                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                AND THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 923

                               __________

                             JUNE 12, 2007

                               __________

                           Serial No. 110-31

                               __________

         Printed for the use of the Committee on the Judiciary
      Available via the World Wide Web: http://judiciary.house.gov

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

36-017 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




























                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                   JERROLD NADLER, New York, Chairman
ARTUR DAVIS, Alabama                 TRENT FRANKS, Arizona
DEBBIE WASSERMAN SCHULTZ, Florida    MIKE PENCE, Indiana
KEITH ELLISON, Minnesota             DARRELL ISSA, California
JOHN CONYERS, Jr., Michigan          STEVE KING, Iowa
ROBERT C. SCOTT, Virginia            JIM JORDAN, Ohio
MELVIN L. WATT, North Carolina
STEVE COHEN, Tennessee

                     David Lachmann, Chief of Staff
                    Paul B. Taylor, Minority Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                  ROBERT C. SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
TAMMY BALDWIN, Wisconsin

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel




















                            C O N T E N T S

                              ----------                              

                             JUNE 12, 2007

                                                                   Page

                                THE BILL

H.R. 923, the ``Emmett Till Unsolved Civil Rights Crime Act''....     2

                           OPENING STATEMENT

The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     1
The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................    12
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties, and Chairman, 
  Committee on the Judiciary.....................................    13
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    14
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    15
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    15
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................    16

                               WITNESSES

Ms. Grace Chung Becker, Deputy Assistant Attorney General, United 
  States Department of Justice, Washington, DC
  Oral Testimony.................................................    17
  Prepared Statement.............................................    19
Ms. Myrlie Evers-Williams, Bend, OR
  Oral Testimony.................................................    39
  Prepared Statement.............................................    42
G. Douglas Jones, Esquire, Birmingham, AL
  Oral Testimony.................................................    43
  Prepared Statement.............................................    45
Mr. J. Richard Cohen, President and Chief Executive Officer, 
  Southern Poverty Law Center, Montgomery, AL
  Oral Testimony.................................................    52
  Prepared Statement.............................................    53
Rita L. Bender, Esquire, Skellenger Bender, Seattle, WA
  Oral Testimony.................................................    57
  Prepared Statement.............................................    59
Mr. Alvin Sykes, President, Emmett Till Justice Campaign Inc., 
  Kansas City, MO
  Oral Testimony.................................................    61

                                APPENDIX

Material Submitted for the Hearing Record........................    81


                         EMMETT TILL UNSOLVED 
                         CIVIL RIGHTS CRIME ACT

                              ----------                              


                         TUESDAY, JUNE 12, 2007

                  House of Representatives,
                 Subcommittee on the Constitution, 
                 Civil Rights, and Civil Liberties,

                                and the

                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 10:18 a.m., 
in Room 2141, Rayburn House Office Building, the Honorable 
Jerrold Nadler (Chairman of the Subcommittee on the 
Constitution, Civil Rights, and Civil Liberties) presiding.
    Present: Representatives Nadler, Conyers, Scott, Jackson 
Lee, Waters, Cohen, Davis, Ellison, Sensenbrenner, Coble, 
Chabot, Lungren, Franks, and Gohmert.
    Staff Present: David Lachman, Chief of Staff; Keenan 
Keller, Majority Counsel; Susana Gutierrez, Professional Staff 
Member, Subcommittee on the Constitution, Civil Rights, and 
Civil Liberties; Bobby Vassar, Chief Counsel, Rachel King, 
Majority Counsel; and Veronica Eligan, Professional Staff 
Member, Subcommittee on Crime, Terrorism, and Homeland 
Security.
    Mr. Nadler. Good morning. This hearing of the Subcommittee 
on the Constitution, Civil Rights, and Civil Liberties, and the 
Subcommittee on Crime, Terrorism, and Homeland Security will 
come to order. I should say this joint hearing will come to 
order. Today's hearing will review legislation introduced by 
our colleague, the gentleman from Georgia, Mr. Lewis, designed 
to address unsolved crimes from the civil rights era.
    The Chair now recognizes himself for an opening statement.
    Today, the Subcommittee on the Constitution, Civil Rights, 
and Civil Liberties and the Subcommittee on Crime, Terrorism, 
and Homeland Security jointly consider H.R. 923, the ``Emmett 
Till Unsolved Civil Rights Crime Act,'' introduced by our 
colleague, the gentleman from Georgia, Mr. Lewis.
    [The bill, H.R. 923, follows:]
      
      

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Nadler. Our Nation's history is regrettably replete 
with acts of violence committed with impunity against African 
Americans generally and civil rights workers in particular. In 
many cases, these crimes are committed as acts of political 
terror designed to prevent African Americans from enjoying the 
same rights as other Americans: the right to vote, the right to 
travel, the right to walk into a restaurant or a theater, even 
the right to walk down the street unmolested.
    For nearly a century, this Congress sat on its hands and 
refused to act. Anti-lynching bills were regularly buried. 
Civil rights bills were considered beyond the pale. Law 
enforcement looked the other way or was actually complicit in 
these acts of terrorism. And the all-White courts never 
convicted clearly guilty perpetrators of assaults and murders.
    As a Nation, we have moved forward. We enacted civil rights 
laws, including criminal statutes that would punish civil 
rights crimes. We moved beyond the culture of impunity that 
protected these criminals. We have moved forward, but we have 
not adequately addressed the past.
    Today, we will take an important step in doing just that by 
giving law enforcement the tools it needs to redress old 
wrongs. H.R. 923 is designed to expand the prosecution of 
unsolved civil rights crimes. The amendment in the nature of a 
substitute I will offer would authorize $11.5 million annually 
to the Criminal Section of the Civil Rights Section of the 
Department of Justice, the Civil Rights Section of the Federal 
Bureau of Investigation and the Community Relations Department 
of FBI.
    The bill would designate specific administrative authority 
for the investigation and prosecution of unsolved civil-rights-
era crimes and require an annual accounting to Congress on the 
progress of the investigative initiatives and provide grants to 
States to take on the task of bringing the criminals to justice 
and cleansing our society of this great stain.
    I want to welcome our witnesses, and I look forward to 
their testimony.
    I would now recognize our distinguished Ranking minority 
Member, the gentleman from Arizona, Mr. Franks, for his opening 
statement.
    Mr. Franks. I want to thank you, Chairman Nadler and 
Chairman Scott, for holding this joint legislative hearing on 
H.R. 923, the Emmett Till Unsolved Civil Rights Crime Act of 
2007. This is critically important legislation that provides 
additional funds for the investigation and prosecution of 
unsolved civil-rights-era murders.
    Emmett Till was only 14 years old in 1955 when he was 
kidnapped and brutally murdered while visiting family outside 
the small town of Money, Mississippi. Two men kidnapped Emmett 
from his great-uncle's home, beat him and then drove him to 
Tallahatchie, the river, where they shot him. They tied a gin 
fan around his neck with barbed wire and dumped his body into 
the river. All of this because Emmett spoke to Carolyn Bryant, 
a White woman, at the town grocery store.
    The defendants, Bryant's husband and his half brother, were 
brought to trial just 4 weeks after Emmett's murder and were 
acquitted. The jury found that the prosecution failed to prove 
that the body recovered from the river was in fact Emmett Till. 
Although the defendants later confessed to the murder, it was 
too little, too late for Emmett Till and his family.
    In 2004, with the assistance of the Department of Justice, 
local officials in Mississippi renewed the investigation into 
Emmett's murder. Unfortunately, by this time the defendants had 
died.
    Emmett's story is not unique. Many civil-rights-era murders 
remain unsolved. The Civil Rights Division of the Department of 
Justice in recent years has renewed its dedication to 
investigating these cases. To assist the Department in its 
efforts, the Emmett Till Unsolved Civil Rights Crime Act 
authorized additional funds for the investigation and 
prosecution of unsolved civil-rights-era murders. The bill also 
directs the Civil Rights Division to report to Congress 
annually on the number of open cases and ongoing 
investigations, the number of prosecutions and closed cases and 
the number of attorneys working on these cases.
    I want to commend Mr. Lewis of Georgia, the co-sponsor and 
the sponsor of this bill for the dedication that he has shown 
on this issue.
    I want to extend a special welcome to Ms. Rita Schwerner 
Bender, widow of slain Civil Rights activist Michael Schwerner; 
and Ms. Myrlie Evers-Williams, widow of Civil Rights activist 
Medgar Evers. God bless you both, and I look forward to hearing 
from you and our other witnesses here today.
    Thank you Mr. Chairman.
    Mr. Nadler. Thank you.
    I would now recognize the distinguished Chairman of the 
full Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Mr. Chairman. Good morning, 
distinguished witnesses.
    This is an important continuation of the most exciting, 
tumultuous, unbelievable part of American history in the 20th 
century. Right in this room and because of what we are doing, 
that history now comes back alive for the first time.
    We have two Subcommittees, and I commend Subcommittee 
Chairman Nadler, Subcommittee Chairman Scott and all of its 
Members and the Ranking Member for this incredible 
recapitulation of what went on during that period of time.
    Just think back with me. It was in 1963 that we lost Medgar 
Evers. Then in the Civil Rights Act of 1964, where freedom 
somewhere occurred, Goodman, Chaney and Schwerner gave their 
lives. We have Attorney Cohen here, who with Morris Dees broke 
the back of the Ku Klux Klan by incredible litigation. We have 
Doug Jones, who led the prosecution of the 16th Street church 
burnings. We have the prosecution of Doug Jones and the work 
that he did in these cases. We have another incredible person, 
Sykes, who was close to Emmett Till. All of this converging 
together.
    And the Committee on the Judiciary of the House of 
Representatives on this 12th day of June, 2007, where we are 
making history by correcting the incredible activity that went 
on during this unbelievable period of time in which tragedy and 
the hopes of people came together as in no other period in our 
history. We are all in the same room, and I want everyone to 
know that this is very moving for me.
    Because when we examine this period of time, Martin Luther 
King, the Civil Rights movement, the pathos, the 
disorganization that went from the lowest farmer in Mississippi 
up through the President of the United States, all were 
involved in this incredible, finally successful, attempt to 
drive legal segregation out of the history and experience of 
this country.
    And it is still with us. We still have a problem. There are 
people that are right now very much afraid of what role they 
might be called to play in this because some of these lingering 
fears still exist.
    So I have never been more proud of being a Member of the 
House Judiciary Committee than I am this morning; and I again 
congratulate the two Subcommittee Chairmen, the Ranking Members 
and the Members of the Committee.
    Thank you very much.
    Mr. Nadler. Thank you.
    I would now recognize the distinguished Ranking minority 
Member of the Subcommittee on Crime, Terrorism, and Homeland 
Security, the gentleman from South Carolina--North Carolina, 
excuse me. I should never get my Carolinas mixed up--Mr. Coble, 
for his opening statement.
    Mr. Coble. Mr. Chairman, I will hold you harmless for that 
grievous error.
    Mr. Nadler. I appreciate that.
    Mr. Coble. Mr. Chairman, I am actually standing in for the 
distinguished gentleman, Mr. Forbes from Virginia, who was 
unavailable to be here. He asked if I would present his 
statement, which I am pleased to do.
    And, Mr. Chairman, I have to attend a Coast Guard hearing 
at 11:00, so when I depart I don't want you to think it is 
because of lack of interest. Because as you, the distinguished 
gentleman from Arizona and our distinguished gentleman from 
Michigan have accurately stated, this is a very, very 
significant hearing today.
    I appreciate you and Chairman Scott holding the hearing of 
H.R. 923, the Emmett Till Unsolved Civil Rights Crime Act of 
2007. As my colleague, Ranking Member Franks noted, the murder 
of Emmett Till in 1955 was both brutal and unconscionable. Even 
more troubling is that the justice system failed Emmett and his 
family in prosecuting his killers.
    As we meet here today, James Ford Seale, I am told, is on 
trial in Federal District Court in Jackson, Mississippi, for 
the 1964 kidnapping and murder of 19-year-old Charlie Eddie 
Moore and Henry Hezekiah Kee. Seale and a group of fellow 
Klansmen abducted Mr. Moore and Mr. Dee, drove them to the 
Homochitto National Forest and severely beat them with sticks. 
They were then wrapped in a plastic tarp--you may have 
mentioned this, Mr. Franks, in your statement--with duct tape 
over their mouths and hands and driven a hundred miles distance 
away where they were eventually dumped into the Mississippi 
River while still alive. Seale was arrested in 1964, but the 
charges were subsequently dismissed.
    Although 40 years have passed since these horrific murders, 
it is my hope that justice will be served for the families and 
friends of these young men. This case is but one of the 
unsolved Civil Rights Era murders that the FBI and the 
Department of Justice are investigating or assisting with local 
investigations.
    I join my colleagues, Mr. Chairman, in strong support of 
this bill to provide additional tools and resources for those 
Civil Rights Era cases; and I again welcome our witnesses and 
thank you for joining us today.
    Before I yield back, I yield to the distinguished gentleman 
from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, and I thank my friend, Mr. Coble.
    I have got to go to another hearing in another matter, but 
I did want to say I do think this is a worthy bill, and I would 
welcome the opportunity to co-sponsor it.
    A crime against anyone in this country is a crime against 
all of us. As the Chairman of the full Committee knows, I 
supported the hate-crimes bill. I hate to see us giving 
precedence to one group over another, because truly a crime 
against any one of us in this country is a crime against all of 
us; and I am glad that this bill is being brought forward. 
These things need to be addressed.
    I yield back my time.
    Mr. Coble. I reclaim and yield back.
    Mr. Nadler. Thank you.
    I would now recognize the distinguished Chairman of the 
Subcommittee on Crime, Terrorism, and Homeland Security the 
gentleman from Virginia, Mr. Scott, for his opening statement.
    Mr. Scott. Thank you, Mr. Chairman; and I would like to 
thank you for convening this panel.
    I would like to extend a very special welcome to Ms. Myrlie 
Evers-Williams and Ms. Rita Schwerner Bender, who have traveled 
long distances to be with us today.
    It is interesting that this day has special significance 
because, although it wasn't intended, it was exactly 44 years 
ago today that Byron De La Beckwith assassinated the field 
director of the Mississippi NAACP, Medgar Evers, outside of his 
home in Jackson, Mississippi. After her husband's death, Ms. 
Evers courageously devoted her life to his memory and dreams, 
keeping those dreams alive and bringing his killer to justice. 
Her tireless efforts, including strong support of the NAACP, 
eventually paid off when her husband's killer was brought to 
trial for a third time in 1994 and finally found guilty of the 
murder more than 30 years after the crime. Ms. Williams, 
welcome.
    Likewise, it took Ms. Schwerner Bender 41 years to get some 
semblance of justice for her husband. On June 21, 2005, Edgar 
Ray Killen was finally convicted of manslaughter for the deaths 
of Michael Schwerner, Andrew Goodman and James Chaney in 1964. 
The Committee also welcomes you, Ms. Bender.
    These cases are only two of dozens of murders that would 
have never been acknowledged, investigated or prosecuted 
without the courageous commitment to justice by a few 
individuals that have been named by the Chairman of the 
Committee, Mr. Conyers. Indeed, we do not even know how many 
people were murdered during the 1950's and 1960's because many 
families did not dare report that their loved ones had been 
murdered for fear of retaliation. The FBI has identified more 
than 100 cold cases that should be further investigated; and, 
if possible, charges should be brought against those accused 
killers.
    I support the adoption of H.R. 923 because it will assist 
the investigation and prosecution of unsolved Civil Rights 
crimes by authorizing funds to the Department of Justice, the 
FBI and, where appropriate, State and local law enforcement 
agencies. It will also require the Attorney General to 
establish positions within the Department of Justice and FBI 
where a specific person will be accountable for ensuring that 
these cases are investigated. DOJ will report to the Congress 
annually on the progress that has been made to solving these 
cases. The first report will be due 6 months after the bill 
becomes law.
    The FBI and the Department of Justice have already made a 
start at investigating these cases when it kicked off its cold 
cases campaign last February. However, as this hearing will 
soon demonstrate, there is an urgent need for the Federal 
Government to provide additional resources to both the 
Department of Justice and the FBI. H.R. 923 will accomplish 
this.
    I urge my colleagues to support this important piece of 
legislation and yield back the balance of my time.
    Mr. Chabot. Mr. Chairman, before the gentleman yields back, 
can I have a yield for just a moment?
    Mr. Nadler. I yield to the gentleman from Ohio.
    Mr. Chabot. I thank the gentleman for yielding. I will be 
very brief.
    I didn't have an opening statement, but I was thinking as 
Mr. Conyers was giving his opening statement, as somebody who 
was born in 1953 and so when this was going on. I was, 
basically, still a kid. Many of us have studied many of the 
great leaders in the Civil Rights movement and those that were 
so directly affected. But some of us have lived it. And Mr. 
Conyers and John Lewis and some others, Fred Shuttlesworth, who 
isn't a Member of Congress but is a leader in my district in 
Cincinnati, it has been an inspiration the time that I have had 
an opportunity to listen to Mr. Conyers, for example, on issues 
related to Civil Rights that we deal with in this Committee.
    As I say, we studied it, we have learned about it, but a 
gentleman like Mr. Conyers really lived it; and it is always 
inspiring to be in the same room to hear stories that he has 
told and to have been one of those Members of Congress that had 
the great honor to go to Rosa Parks funeral in Detroit. A woman 
who was obviously was not only one of the early leaders in the 
movement, even though at the time I don't think she was going 
to be a leader in the movement, but who actually worked in Mr. 
Conyers' office, Rosa Parks did, which a lot of people don't 
know. So I just want to tell Mr. Conyers what an honor it is to 
have been able to actually listen to one of the early leaders 
in the movement on an everyday basis in this institution, and I 
yield back.
    Mr. Nadler. I thank the gentleman.
    In the interest of proceeding to our witness and mindful of 
our busy schedules, I would ask that other Members submit their 
statements for the record. Without objection, all Members will 
have 5 legislative days to submit opening statements for 
inclusion in the record.
    Without objection, the Chair will be authorized to declare 
a recess of the hearing.
    As we ask questions of our witnesses, the Chair will 
recognize Members in the order of their Subcommittees, I should 
say--alternating between majority and minority, providing that 
the Member is present when his or her turn arrives. Members who 
are not present when their turn begins will be recognized after 
the other Members have had the opportunity to ask their 
questions. The Chair reserves the right to accommodate Members 
who arrive late or are only able to be with us for a short 
time.
    Our first witness will be Grace Chung Becker, Deputy 
Assistant Attorney General in the Civil Rights Division of the 
Justice Department. Your written statement will be made part of 
the record in its entirety. I would ask that you now summarize 
your testimony in 5 minutes or less. To help you stay within 
the time, there is a timing light at your table. When 1 minutes 
remains, the light will switch from green to yellow and then 
red when the 5 minutes are up.
    Thank you, and you may proceed.

  TESTIMONY OF GRACE CHUNG BECKER, DEPUTY ASSISTANT ATTORNEY 
  GENERAL, UNITED STATES DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Ms. Becker. Thank you very much. Good morning, Chairmen 
Nadler and Scott, Ranking Members Franks and Forbes, and 
Congressman Coble, who is standing in for Congressman Forbes, 
and all the Members of the Subcommittee.
    It is an honor and a privilege to testify this morning 
about the work we are doing at the Department of Justice 
regarding Civil Rights Era murders. These horrific crimes 
constitute some of the greatest blemishes upon our history, and 
I commend the Subcommittees for their efforts to support our 
activities in this area.
    The Department strongly supports the important legislative 
goals of H.R. 923. This is a very exciting time for us at the 
Civil Rights Division. Civil rights is one of the top 
priorities of the Department.
    Last year, the FBI began its cold case initiative to 
identify and investigate Civil Rights Era murders. On February 
27, 2007, the Department announced the next phase of this 
initiative, the FBI's partnership with the NAACP, the Southern 
Poverty Law Center and the National Urban League.
    The Civil Rights Division has also been taking an active 
role in prosecuting cold cases. In January of this year, a 
Federal Grand Jury in Mississippi indicted James Seale, an 
alleged former member of the Ku Klux Klan, on two counts of 
kidnapping and one count of conspiracy. These charges stem from 
Mr. Seale's alleged participation in the 1964 murders of two 
young men, one of whom was a Civil Rights worker. Trial is 
currently under way; and, like every defendant, Mr. Seale is 
presumed innocent until proven guilty.
    Being able to bring even a single historical prosecution in 
Federal Court is extraordinary and very exciting. Federal 
prosecutors must overcome constitutional challenges, 
jurisdictional hurdles, as well as practical limitations. For 
example, the ex post facto clause of the Constitution prohibits 
retroactive application of criminal Civil Rights statutes 
enacted after the time of the incident. H.R. 923 applies to 
crimes occurring before December 31, 1969. However, two of the 
most important Federal statutes for prosecuting racially 
motivated homicides were not enacted until 1968. Therefore, the 
ex post facto clause bars use of these statutes when the 
incident occurred prior to 1968.
    In addition, the 5-year statute of limitations for Civil 
Rights crimes during this era expired quite some time ago. 
Nevertheless, the division is committed to bringing these cases 
where we can.
    We have creatively used noncivil rights statutes in 
prosecuting some capital offenses. For example, in 2003, the 
division successfully prosecuted Ernest Avants, a Mississippi 
Klansman, for the 1966 murder of Ben Chester White, an African 
American man. There was Federal jurisdiction because Mr. Avants 
shot Mr. White multiple times inside a national forest before 
throwing his body off a bridge. Mr. Avants participated in the 
racially motivated killing in an attempt to lure Martin Luther 
King to the area so he could attack him as well.
    Mr. Avants had been acquitted of State murder charges in 
1967. We were able to obtain Federal jurisdiction because the 
murder occurred on Federal land, a national forest, which falls 
within special maritime and territorial jurisdiction of the 
United States; and because the Federal murder statute was 
enacted in 1948, the prosecution was not barred by the ex post 
facto clause. Similarly, capital offenses have no statute of 
limitations so that we were able to overcome that hurdle as 
well.
    In addition to the constitutional and jurisdictional 
challenges, there are also substantial evidential hurdles to 
prosecuting 40-year-old cases. Witnesses and, as Congressman 
Franks described, potential criminal defendants have passed 
away. Memories have faded, and sometimes evidence is simply 
lost. Because of the long passage of time, many of the victims' 
families, friends and the Nation will never be able to see 
justice served inside of a courtroom. But even in cases where 
there is no Federal jurisdiction, the Federal Government can 
still play an important role.
    For example, the FBI recently worked with Mississippi 
authorities, as was mentioned in some of the opening 
statements, to investigate the 1955 murder of Emmett Till, a 
14-year old African American teenager who was kidnapped and 
killed in rural Mississippi. Although there was no Federal 
jurisdiction, the FBI reported the results of its extensive 
investigation to the District Attorney for Greenville, 
Mississippi. Earlier this year, the matter was presented to a 
State grand jury, which declined to indict anyone.
    In conclusion, the Department is committed to pursuing 
Civil Rights Era cases whenever possible and welcomes the 
opportunity to work with the Committee on H.R. 923.
    Thank you very much.
    Mr. Nadler. Thank you.
    [The prepared statement of Ms. Becker follows:]
                Prepared Statement of Grace Chung Becker
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Nadler. I begin by recognizing myself for 5 minutes.
    Ms. Becker, how many Civil Rights Era cases have the 
Department of Justice brought to date?
    Ms. Becker. We have investigated a number of matters and 
have two recent prosecutions, the Avants prosecution in 2003 
and the Seale prosecution that is under way as we speak.
    Mr. Nadler. So just two?
    Ms. Becker. Two most recent prosecutions, yes.
    We also have investigated a number of matters--the FBI in 
conjunction with the Civil Rights Division over the last 
several years. Even though there was no Federal jurisdiction, 
we were providing assistance perhaps to the States or, in the 
case of Emmett Till, handing over our report to the State when 
we found there was no Federal jurisdiction.
    Mr. Nadler. And will this bill assist you in bringing more 
cases?
    Ms. Becker. It certainly will, Mr. Chairman; and let me 
explain how.
    The bill is a very important bill because, of course, these 
cases are just so important. Even if there is a slight chance 
that we can bring these cases, it is important for us to 
investigate and prosecute these cases wherever we can to ensure 
that no stone is left unturned; and if we can prosecute some of 
these horrendous crimes that occurred 40 or 50 years ago we 
should certainly do so. If Congress were to approve the 
resources in H.R. 923, that will facilitate the ability of both 
the FBI and the Civil Rights Division to effectively 
investigate and prosecute these matters. The FBI, as Chairman 
Scott mentioned, has already identified over 100 potential 
Civil Rights era cases that could benefit from investigation 
and prosecution.
    Mr. Nadler. And these 100 cases you think are, to coin a 
phrase, bringable despite the ex post facto and constitutional 
problems and may help the bill bring its resources.
    Ms. Becker. I think the bill will do a number of things in 
addition to the resources. I think it also brings a lot of 
national attention and emphasizes the importance of these types 
of cases for the general public.
    I think, in addition, it also provides some grant-making 
authority so that I believe that it would enable the Federal 
Government to share some of these resources with the States, 
which it has not been able to do before. So that if the FBI or 
the Civil Rights Division is assisting in an investigation and 
determines it doesn't have Federal jurisdiction, perhaps the 
State can bring a prosecution with some additional resources as 
well.
    Mr. Nadler. Thank you very much.
    I yield back, and I recognize the gentleman from Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman; and thank you, 
Ms. Becker, for joining us here today.
    It occurs to me it is probably difficult to identify all of 
the cases that you would like to pursue. Are you working in 
conjunction with Civil Rights organizations or media? How do 
you identify the cases that you think have the best opportunity 
to be pursued?
    Ms. Becker. The FBI reached out to its various field 
offices around the country and has worked with various Civil 
Rights groups, the NAACP, the Southern Poverty Law Center and 
the National Urban League, just to mention a few. And I know 
Mr. Cohen, who is on the second panel, is one of our partners 
in this endeavor; and the Southern Poverty Law Center has been 
very helpful in providing a number of cases from the Civil 
Rights era. It is unclear today what the state of the current 
evidence is in all of those cases, whether or not there are 
still viable leads in these cold cases. So that is something 
that the FBI is in the process of assessing.
    Mr. Franks. Once you identify a case, and I can imagine 
many, but what is your greatest logistical challenge? Is it 
physical evidence? Is it the lack of witnesses? Is it just the 
age? Is it statute? What is your biggest logistical challenge?
    Ms. Becker. I think it is a combination of all of those 
things.
    First and foremost, from the Federal perspective, our 
jurisdiction is limited. We have those constitutional and 
statutory hurdles that I mentioned. The States are in a little 
bit of a better position, because many of them do not have the 
same statute of limitations problems that we have for murder, 
which, of course, was a crime during that time period, and 
there is no ex post facto concern there.
    The evidentiary hurdles cannot be underestimated as well. 
Some of the defendants that we would like to prosecute have 
passed away. There are also witness issues and evidentiary 
issues. Some of these cases were investigated perhaps 40 or 50 
years ago, and it is unclear what the status of that evidence 
is at this point.
    Mr. Franks. It sounds like you, many times, pursue murder 
charges because they are the only ones that you can pursue; and 
a lot of the other egregious tragedies that took place have to 
be glossed over in a sense because there is a statue of 
limitations that makes it impossible, is that correct?
    Ms. Becker. That is correct. Capital offenses have no 
statute of limitations. But the statute of limitations issue 
gets a little bit complicated because there were some offenses 
where death resulted earlier on that did not have unlimited 
statute of limitations at the time the crime was committed. So 
it is very fact specific. It is a case-by-case basis. That is 
why it is so important that we analyze these cases thoroughly 
on an individual basis.
    Mr. Franks. Ms. Becker, if you were writing an amendment 
for this Committee to put in some of our Civil Rights laws or 
other laws that are not developed as they should be in order to 
pursue justice in these cases, are there some things that 
Congress can do to make it easier for you? Whether it is 
getting rid of some of the--and I know sometimes you are 
dealing with State law, but if we could do anything in the 
pursuit of justice in these egregious cases, what would we do 
from this Committee's standpoint?
    Ms. Becker. I think H.R. 923 is a step in that direction, 
Congressman; and I think that would be very helpful to the 
Administration.
    Mr. Franks. And can you just for the Committee's sake one 
more time give us a sense of how 923 empowers the Department to 
pursue these cases?
    Ms. Becker. I think if Congress were to approve the 
resources in 923, it would enable us to provide greater 
attention to the investigation and prosecution of these cases 
wherever is possible. I think it also enables us to create 
partnerships with the State and local governments with a lot of 
these cold cases, even in cases where the Federal Government 
does not have jurisdiction and is not able to bring it. I think 
those are two very important ways that it does so.
    I think it is also very important for the American public 
to understand that these cases are still important and that we 
have not forgotten about them; and even though we call them 
``cold'' cases, we are looking for burning embers wherever we 
can find them.
    Mr. Franks. Well, let me just encourage you to continue to 
do what you do for these ofttimes forgotten children of God. It 
is a noble thing that you do. Thank you.
    Ms. Becker. Thank you.
    Mr. Nadler. Thank you.
    I now recognize the distinguished Chairman of the 
Subcommittee on Crime, Terrorism, and Homeland Security, Mr. 
Scott.
    Mr. Scott. Thank you; and thank you, Ms. Becker, for your 
testimony.
    Is the amount authorized in H.R. 923 sufficient for you to 
do all that you have available to do?
    Ms. Becker. Congressman Scott, I believe that the amount, 
if Congress were to approve it, would be put to very good use; 
and I think that that amount would be sufficient, at least from 
what we can tell at this point. It is hard to say because there 
is a 10-year life to this statute, but I think at this point it 
seems like a good start.
    Mr. Scott. In following up from the questions from the 
gentleman from Arizona, do you have any recommended amendments 
to this bill?
    Ms. Becker. I have not seen the latest version of the bill, 
so I may have some additional comments when I do, but I believe 
the goals of the bill and I think that the bill is a very 
positive step in the right direction.
    Mr. Scott. Now you mentioned statute of limitations. Do any 
States have a statute of limitation on murder?
    Ms. Becker. I am not aware of any at the current time, but 
I would want----
    Mr. Scott. Are there any other crimes that have either no 
statute of limitations or statute of limitations that haven't 
expired yet for other crimes other than murder, or do most of 
them expire after about 5 or 10 years?
    Ms. Becker. Murder is the quintessential example of a case 
that does not have the statute of limitations.
    Mr. Scott. So we are limited just to murder cases pretty 
much?
    Ms. Becker. I believe that is correct.
    Well, if I can make one correction, It is not just murder 
cases, but in cases--capital offenses. So, for example, in the 
Seale case we are charging kidnapping resulting in death, which 
is a capital offense, so there is no statute of limitations 
under Federal law.
    Mr. Scott. Some of these have been tried and acquitted in 
trials that I think weren't fair. Are we going over those, too, 
to see if there is any opportunity for the Federal Government 
to retry them in a forum that would be fair?
    Ms. Becker. I think that would depend upon which forum the 
defendant was tried in, if the defendant was tried in the State 
court and acquitted and the Federal Government could take a 
fresh look at it and could see if there is a potential Federal 
prosecution there. However, because of the double jeopardy 
clause, once they have been acquitted once in the State court, 
then the State can not bring a subsequent prosecution.
    Mr. Scott. Is there statute of limitations on the Civil 
Rights murder statutes in the Federal system?
    Ms. Becker. The statutes that we normally prosecute under--
the Civil Rights statutes we would normally use, there is a 
statute of limitations issue there. So what we have tried to do 
is work creatively using non-Civil Rights tall capital offenses 
that do not carry a statute of limitations, such as murder on 
Federal land or kidnapping resulting in death.
    Mr. Scott. But if they have been tried in State court, 
would that not be double jeopardy if it is essentially the same 
charge.
    Ms. Becker. If it is with the Federal Government, it is a 
separate sovereign, so there wouldn't be a double jeopardy 
problem there.
    Mr. Scott. Could you say a bit about the nature of your, I 
think you said, formal partnership with the NAACP, Urban League 
and Southern Poverty Law Center.
    Ms. Becker. Yes. This is the FBI's partnership with the 
individual Civil Rights organizations asking for any cases that 
they may be aware of in the Civil Rights era or any leads that 
they may have with respect to these cases.
    Mr. Scott. That is asking for information. Is there an 
ongoing partnership?
    Ms. Becker. I think it is intended to be an ongoing 
dialogue. As time goes on, individual field offices may reach 
out to the individual offices there.
    Mr. Nadler. Gentleman yields back.
    I now recognize the gentleman from North Carolina.
    Mr. Coble. Thank you, Mr. Chairman. Ms. Becker, good to 
have you with us.
    Ms. Becker, you indicated the Department of Justice had 
brought to trial two cases for the Civil Rights era. Over what 
period of time does that cover?
    Ms. Becker. Avants was in 2003, and Seale was this year, 
Congressman. But I should say that the Civil Rights Division 
has also been very active in other prosecutions as well. In the 
16th Street bombing case, the Department of Justice was 
involved in the investigation of that matter before it was 
tried by the State.
    Mr. Coble. How many attorneys are there in the Civil Rights 
Division? Are any of those attorneys exclusively assigned to 
Civil Rights Era cases?
    Ms. Becker. We have currently approximately 50 prosecutors 
in the Criminal Section of the Civil Rights Division, which 
would be the section that would responsible for potentially 
prosecuting these crimes; and we are able to use all of those 
resources to prosecute Civil Rights Era crimes.
    We have, obviously, some attorneys who are very experienced 
in this area and have worked on a number of these cases, and 
they provide subject matter expertise, but at this point that 
is not 100 percent of their portfolio.
    Mr. Coble. Ms. Becker, once a case is set for trial, do the 
attorneys in your division participate in the actual trial?
    Ms. Becker. Definitely. We work hand in hand with the U.S. 
attorney's offices around the country. So, oftentimes, the 
trial team will consist of a trial attorney in the Criminal 
Section of the Civil Rights Division and perhaps an AUSA in the 
local U.S. Attorneys office or sometimes even the U.S. Attorney 
himself.
    Mr. Coble. I think you have previously answered this 
question, but, as I understand, you do work closely with Civil 
Rights organizations, the media, State and local authorities, 
do you not?
    Ms. Becker. That is correct.
    Mr. Coble. In your testimony, Ms. Becker, you stated that 
the Department has concerns with creating a new unresolved 
Civil Rights crime investigative office. Elaborate on that, if 
you will.
    Ms. Becker. I think that has been resolved in the latest 
version of the bill, but the concern at the time was creating 
an additional layer of--additional office when one may not be 
necessary.
    The bill currently has a 10-year sunset. So, initially, the 
FBI will probably be doing some initial legwork to see which of 
these cases are ripe for a potential investigation. And if it 
seems like these investigations are ongoing, a prosecutor from 
our office will become involved and participate actively within 
the investigation as legal questions arise, if witnesses have 
counsel, if there are special investigative techniques that 
need to be pursued, and also to guide the investigation to 
ensure that we can meet the jurisdictional hurdles, finding out 
whether or not this occurred on Federal land or finding out 
whether or not interstate commerce is affected.
    Those are questions that perhaps an agent may not think of 
without the assistance of a Federal prosecutor, and so we will 
work hand in hand with them. And then at a certain point, if it 
looks likes a prosecutable offense, we will then work with the 
U.S. attorney's office to bring an indictment and prepare for 
trial.
    Mr. Coble. I can appreciate the obstacles that you face, 
the ex post facto concerns, the statute of limitations, the 
passage of time, witnesses deceased or unavailable, the passage 
of time-dimming memories, all sorts of obstacles that you 
confront. I commend you all for going ahead.
    Mr. Chairman, I think this is a good bill, and I am fully 
supportive. I thank you and Mr. Scott and Mr. Forbes and Mr. 
Franks for having conducted this hearing; and I thank you 
again, Ms. Becker, for having been with us and yield back.
    Mr. Nadler. Thank you. The distinguished Chairman of the 
Committee, the gentleman from Michigan.
    Mr. Conyers. Thank you, Mr. Chairman; and thank you, 
Chairman Scott, as well.
    Ms. Becker, you come here from what may be considered by 
many to be the most significant part of the Department of 
Justice, the Civil Rights Division; and within it is the 
Criminal Section, Special Litigation Section, Housing, 
Education, Employment, Voting, Appellate, Disability Rights, 
Coordination and Research. This division was created by 
President Lyndon Baines Johnson when we passed the Civil Rights 
law of 1964, a historic moment that not only created a kind of 
excitement and movement and, in some places, unfortunately, 
violence.
    So you, as a Deputy Assistant Attorney General in the 
Criminal Section, have enormous responsibilities; and the 
Judiciary Committee, by having jurisdiction over the Department 
of Justice, has a huge responsibility. One of the things that 
we are pledged to do is to help make you as effective as 
possible, and we wanted to just chat with you about that. 
Because, as you know, the Department of Justice has come under 
scathing investigation and criticism over the last several 
months.
    I see so many subjects in here. Are you able to comment on 
the number of lawyers and assistants and resources that you 
have here, give us some kind of idea of how you stacked up to 
get results?
    Look at these different sections of the Civil Rights 
Division. America would be a different place if we could 
produce improvement in voting, in employment, in housing, in 
education, disability rights and, of course, the work that you 
are doing in the Criminal Section. Can you give us an idea of 
how things are going?
    Ms. Becker. I can tell you, Congressman, that the Civil 
Rights Division is vigorously enforcing all Federal Civil 
Rights laws. We are--for example, in the criminal division our 
section has been very vigorously enforcing all areas that are 
within our jurisdiction. So, for example, almost half the cases 
we brought last year were in the color of law area. Those are 
traditional law enforcement misconduct cases that we brought.
    We have also brought significant numbers of hate crimes and 
human trafficking crimes, as well as the Civil Rights Era 
murders.
    Mr. Conyers. Well, I am glad that you used the term 
``vigorously'' because I haven't used it. I mean, I just had 
Reverend Al Sharpton come in from New York about police abuse 
in two cases; and we are working on them. We are getting 
complaints in the voting section. I was in Ohio when I met the 
angriest group of people I had seen after the election day 
problems that they had there. This goes on and on.
    We have got a lot more to talk about, but, as you know, 
this Committee will be working in a larger scope. I just wanted 
to bring that to your attention and mention, also, Mr. 
Chairman, that John Lewis just sent us a message. He is in New 
York speaking at the memorial service of David Halberstam; and, 
as the author of this bill, he wanted us to all know why he is 
not here. Because I saw him yesterday and told him you were 
coming, and I was stunned to find out that he asked us to make 
it clear about his inability to be with both of you today.
    I thank you, Mr. Chairman, and return the time.
    Mr. Nadler. I thank you.
    Gentleman from California?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I might say the evidence is that America is a very 
different place today than it was when these tragic events 
occurred. We have benefited much from the Federal pieces of 
legislation, the various Civil Rights acts that have passed and 
been implemented and enforced by Administrations, Democrat and 
Republican, over the last 40 years, but yet there is still a 
stain that remains on our national history, and that is these 
unsolved cases coming out of the Civil Rights era. I view this 
legislation as a now-or-never piece of legislation. We already 
have, as you suggested, some potential defendants who have 
died----
    Ms. Becker. That is correct.
    Mr. Lungren [continuing]. Witnesses who are no longer here, 
trials which took place which raise the issue of double 
jeopardy. If we are ever going to do as much as we possibly 
can, we need to do it now in the next 10 years. Time runs out. 
History doesn't stand still for us. So I appreciate what you 
are doing, and I appreciate the Administration support for this 
legislation.
    Just to make clear on the record, in the last Congress when 
we had legislation presented in the Senate by Senator Talent, 
the Justice Department was concerned about some parts of it and 
said in a letter that the Constitution bars the law then being 
considered, S. 2679, from retroactively conferring Federal 
jurisdiction to prosecute such Civil Rights crimes.
    Two of the most important Federal statutes for prosecuting 
racially motivated homicides, 18 U.S.C. 245 and 42 U.S.C. 3631, 
were not enacted until 1968. Moreover, from crimes committed 
prior to December 31st, 1969, virtually all Federal criminal 
Civil Rights statutes carried a 5-year statute of limitations, 
even where death resulted.
    So I think it is important to note that the current bill 
and the manager's amendment does not seek to establish or 
expand Federal jurisdiction to prosecute Civil Rights crimes in 
a major way, it authorizes significant funding to establish a 
continued effort for the next 10 years.
    So I think it is important for members of the public to 
understand it is not an easy thing to follow these cases and to 
prosecute these cases because of the various things you 
mentioned in your testimony. But, nonetheless, we are going to 
do the best we can.
    You have bipartisan support of this Committee and I suspect 
on the floor of the House and the Senate for this. This ought 
to be something that transcends any type of partisanship. In 
some cases, we are going to be disappointed, because we will 
run up against double jeopardy and we are going to run up 
against the difficulty of witnesses and finding evidence, but 
the fact that we might fail in some circumstances is not an 
excuse for not trying. It ought not to be viewed as a failure 
on the part of any of us to do what we can do now.
    We are in a very different place than we were when the 
trials of some of the suspects or defendants in these cases 
took place and within an hour or 2 hours a single-color jury 
found somehow that people were not to be held responsible for 
their actions.
    When you look about the case of the young man for whom this 
bill is mentioned, it is inconceivable that grown men think 
that somehow they became better men by brutally killing a 14-
year-old boy. I mean, that is hopefully how far we have come 
from a country in which certain segments of our society would 
believe that that was not only justifiable but it was affirming 
of them as human beings to do that to another human being.
    So I thank the authors of this bill, I thank the Chairmen 
of the two Subcommittees for getting together to have this 
hearing and to move this bill, and I thank you for what you and 
your colleagues are doing at the Administration. And I thank 
our witnesses coming up on the next panel who have lived this 
experience in ways that most of us will never live it. We have 
to stand in awe of their courage and persistence in seeking 
justice and in making this a better place.
    Thank you very much, Mr. Chairman.
    Mr. Nadler. Yield back?
    Mr. Lungren. Yes.
    Mr. Nadler. Thank you, gentleman.
    I now recognize the gentleman from Tennessee.
    Mr. Cohen of Tennessee. Thank you, Mr. Chairman.
    I am a first-year person on this Subcommittee. It is the 
first time I have had the opportunity to have somebody from the 
Justice Department before us who either didn't have to be sworn 
in or not want to be sworn in. It is a nice occasion to have 
you before us and also to see this Committee in such a 
bipartisan fashion and agreeing on the subject matter.
    It is not nice to see--I went through this book during the 
testimony. I was listening, but this Southern Poverty Law 
Center has put together this book. It is a history, really, for 
what us old enough to recall about the Civil Rights era and the 
horrific deaths and the conditions and the challenges and the 
heroics of people. It is hard to fathom, as Congressman Lungren 
said, adult people committing these crimes or having these 
thoughts, but they did, and they need to be brought to justice, 
if possible.
    Are there any files of the FBI that are not available to 
you, tapes, undercover tapes or anything like that, that you 
would need access to?
    Ms. Becker. I am not aware of any problems along that 
regard, Congressman. I think the FBI and the Civil Rights 
Division work very closely together, and we have had very a 
good relationship in terms of accessing evidence.
    Mr. Cohen of Tennessee. Do you know of any files at all 
that are not available to you? The FBI seemed to have a wide 
surveillance system during that time.
    Ms. Becker. I would have to defer to the FBI on what files 
they have.
    Mr. Cohen of Tennessee. Have you inquired? I would hate to 
defer to the FBI, to be honest. Do you have any reason to 
believe that there are files not available to your division.
    Ms. Becker. I have no reason to believe that.
    Mr. Cohen of Tennessee. Have you made inquiries?
    Ms. Becker. I have not. We do make inquires on a case-by-
case basis as we investigate and prosecute these cases hand in 
hand with the FBI, and that has been an issue that has not come 
to my attention at all.
    Mr. Cohen of Tennessee. Dr. King's assassination is the 
last--of course, it is not the last death, it is the last in 
this book, hid the records of the investigative Committee in 
the late '70's are sealed until the year 2028. Have you made 
any efforts or do you believe any of the material therein would 
help you in looking into the people that might have been 
conspirators or aiders and abettors to that death.
    Ms. Becker. I could tell you the Civil Rights Division 
looked into allegations in the late '90's regarding Martin 
Luther King, Jr., and issued a report regarding those 
allegations which ultimately proved not to be credible. Now 
there may be additional allegations out there, but I can tell 
you there were two in particular that we specifically looked at 
in the Civil Rights Division.
    Mr. Cohen of Tennessee. Do you know if there is information 
in those files that might be helpful to you?
    Ms. Becker. I believe that our attorneys that worked on the 
MLK investigation at the time had access to all the information 
that they needed to do the scope of their investigation.
    Mr. Cohen of Tennessee. I appreciate your work and your 
interest here and the Members of the Committee in this 
bipartisan fashion. When you look at this you have to think 
about the horrors of slavery. I read about the passage--and, of 
course, last weekend was the middle passage ceremony in 
Charleston, South Carolina, and other places in the country. 
The way people were brought to this country for 250 years in 
slavery and Jim Crow laws and the signs Jim Crow must go. And 
yet some people in Arkansas and you can see the faces of Little 
Rock Central High School and at Oxford people that were 
resistant to change. What happened under crimes against 
humanity, of slavery and Jim Crow laws is inexcusable. It was 
allowed by this Nation, unfortunately.
    And I believe and I have got a bill and I would hope that 
some my Republican colleagues might take the lead and join us 
in passing an apology for this Nation. Right now, we have 102 
Democratic cosponsors and one Republican. This should be 
bipartisan, as it was in the States of Virginia, Delaware, 
North Carolina and Alabama, where apologies and regrets have 
been expressed. I would hope my Republican colleagues, who I 
know understand that and thought about it and obviously, by 
hearing the questions today, have concerns, as we all do, would 
join us to have a bipartisan and not a partisan apology for 
slavery by this Congress.
    Thank you.
    Mr. Nadler. Does the gentleman yield back?
    Mr. Cohen of Tennessee. Yes, sir.
    Mr. Nadler. I now recognize the gentleman from Alabama.
    Mr. Davis. Thank you, Mr. Chairman and Ms. Becker.
    I want to reserve most of my substantive comments for the 
second panel. Two close friends of mine are on that panel, and 
I will have a chance to greet them in--not too long, but I 
wanted to acknowledge two individuals and make a substantive 
comment while you are here.
    First of all, I want to recognize Alexander Acosta, who is 
the current U.S. Attorney in Miami, who used to be your boss, I 
suppose, as chief for the Civil Rights Division. He has been a 
20-year friend of mine. We were at Harvard undergrad and 
Harvard Law School together. Mr. Acosta is now the U.S. 
Attorney in Miami. He was the individual who revived a lot of 
the cold case prosecution investigations within the Department 
of Justice. So I don't want the hearing to pass without 
acknowledging him.
    Second of all, as an Alabamian, I don't want the hearing to 
pass without acknowledging William Joseph Baxley. Bill Baxley 
was attorney general of my State during the 1970's; and, to 
follow up on Mr. Lungren's comment, Alabama was a very 
different place in the 1970's than it is today. Mr. Baxley made 
the very difficult political decision to prosecute a man who 
was linked to the 16th Street bombing, and that was a very 
unpopular choice and possibly prevented him from ever being 
Governor of my State. He now practices law in the State of 
Alabama. He has been an outstanding public servant but never 
got a chance to sit in the Governor's office in part because of 
his political courage. I want to make sure that he and people 
like him were acknowledged today.
    One of the inspiring things about this panel, these cases 
would have gone away but for individual prosecutors many times 
at the State level but sometimes the Federal level who were 
willing to revive them and who believe that, frankly, the South 
is a better place than it once was.
    I want to turn to one substantive area and pick up where 
the Chairman of the Committee left off. You talked about the 
agenda of the Justice Department now, and you mentioned a 
variety of cases. You mentioned the hate crime prosecutions. 
You mentioned a number of prosecutions that have been brought 
by your Department.
    The one thing that was missing from that litany, if I heard 
you correctly, was a reference to voter suppression cases. You 
are obviously aware of the phenomenon of voter suppression. 
Those are official but organized activities, rather than 
individuals who were trying to keep someone from exercising 
their right to vote. It can be done through a variety of 
tactics: misinforming people about their eligibility or having 
loud bullhorns on Election Day outside Black and Latino 
precincts announcing to people that if you have unsatisfied 
judgments that you can't vote, if you have outstanding debts or 
if you have warrants that you can't vote. There were a variety 
of voter suppression tactics that have been launched around the 
country, and I was curious how many prosecutions to your 
knowledge has your Department brought in voter suppression 
cases?
    Ms. Becker. I don't have those numbers available to me 
right now, Congressman. I came here to speak about H.R. 923.
    Mr. Davis. Do you know of a single one?
    Ms. Becker. I don't have those numbers here.
    Mr. Davis. I mention it because I fully recognize you are 
here to talk about a very good, bipartisan bill; and I will say 
more with the next panel. But I think Mr. Conyers and the 
Chairman were correct to raise these issues, because we don't 
get to hear from the Civil Rights Division a lot. It is fairly 
limited scope testimony; and, from your earlier testimony about 
the kinds of cases you have brought, I assume you do have some 
broad familiarity of what the Department is doing.
    So I would frame it this way. I hope that you will gather 
that data and if for whatever reason the answer is none and 
zero I would hope that this Department, the current leadership, 
would correct that.
    Individuals trying to prevent people from exercising the 
right to vote is as fundamental a violation of our Constitution 
and legal structure as any other kind of crime; and, frankly, I 
think part of reason you don't remember any cases like that is 
there haven't been very many, if any, and that ought to be a 
priority. I know of at least one instance this year this 
Committee has passed a bill to address those issues.
    I yield back my time, Mr. Chairman.
    Mr. Nadler. I thank you gentlemen.
    I recognize the gentleman from Minnesota.
    Mr. Ellison. Thank you, Ms. Chung Becker, for your 
testimony today.
    I just have a brief statement. I want to say I thank the 
Chair of this whole Committee for bringing forth this bill and 
also this hearing. I think there are some people who might say 
this happened a long time ago, let's get on with it, but I 
think that ignores the generational trauma that hate crimes 
like this inject an entire community with fear. The fact is the 
terror that Civil Rights workers and others faced when we were 
trying to bring our country into democracy was so prevailing 
and the nature of the murders was so spectacular that it 
injected a paralyzing fear into the entire community. I don't 
know if we have yet to really recover from it.
    I want to agree that America is a different place than it 
used to be 40 years ago, but it is not enough of a different 
place for me, particularly when we think about some of the 
civil and human rights violations we see still committed. Some 
of them I think are sanctioned by Government and law.
    So I want to say to the Chair that I think this is a very 
important hearing, and I hope that the resources that this bill 
can provide will motivate the Department of Justice to be 
vigorous in its approach.
    I don't think two cases is very many compared to the number 
of cases that there are. I don't know why there is only two. 
There may be a good explanation. You mentioned things like 
statute of limitations, ex post facto and all that stuff, but I 
know--as a person who has practiced law for 16 years, I know 
that where there is a will there is a way.
    I just want to say hats off to all the State prosecutors 
and some Federal, as Congressman Davis mentioned, but I hope 
the resources provided in the bill do get to the Justice 
Department and enliven and help the Civil Rights Division to 
prosecute some of these cold cases.
    Mr. Nadler. Does the gentleman yield back?
    Mr. Ellison. Yes.
    Mr. Nadler. I thank you, gentleman.
    Ms. Chung Becker, our Members may have additional questions 
after this hearing.
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Nadler. I recognize the gentlelady from Texas.
    Ms. Jackson Lee. I thank the Chairman, and I thank the 
Deputy Assistant Attorney General for being here.
    I think this bill's underlying premise is that we have no 
choice, frankly. If this country is to ask its citizens to 
believe it is a country of laws governed by a Constitution that 
includes the right to due process, then we have denied any 
number of family members, in essence, due process or the right 
to have closure to the cases that have been so heinous.
    I note it has been indicated that your initial testimony 
regarding H.R. 923 mentioned something about resources and the 
possibility that you would have some issues of witnesses or 
evidence generating or whether or not it would duplicate the 
Civil Rights Division. I think that this is so unique, these 
cases are cases of mutilation, they are cases of heinous 
murder, and I applaud some of the deep South Department of 
Justice officials and also State and local officials who had 
the courage to recognize that an unsolved case is an injustice. 
It is an injustice for the families. It is certainly an 
injustice for the deceased person who, as a member of this 
society, under a Constitution that promised in its early 
premise the Bill of Rights and the Founding Fathers' statement 
of we are all created equal, knowing that the lives of many 
individuals were lost in a time that they were not considered 
equal. In fact, they were brutalized for their viewpoints but 
also for the thoughts people had about them.
    So my question again, if I can--if it has been asked and 
answered, but I want it again for the record, will the Justice 
Department accept the fact that this is necessary and that to 
either ask for resources or believe resources to such a section 
could provide a vital relief to those who still mourn and those 
who still feel, undermined if you will, because of the lack of 
solving of these crimes?
    Ms. Becker. The Department believes that this bill is a 
very important bill, H.R. 923. We wholeheartedly support the 
legislative goals that are behind this bill. We have been 
working with Congress as the bill has progressed through 
various iterations. I think we have had a very good and 
productive bipartisan working relationship on this matter, and 
we look forward to continuing that relationship as we go 
forward.
    Ms. Jackson Lee. So, based upon the structure of the bill, 
the Justice Department is supporting crafting, carving, 
establishing an Unresolved Crime Section separate and apart 
from the Civil Rights Division.
    Ms. Becker. Congresswoman, I am not sure--there have been 
various versions of the bill. I am not sure if that version is 
currently in this bill or was in an earlier bill. But I believe 
that issue has been resolved.
    Ms. Jackson Lee. Well, when you say you believe it has been 
resolved, resolved in what manner?
    Ms. Becker. I believe there has been a bipartisan agreement 
as to the structure of who the designee will be in the Civil 
Rights Division, who the designee will be at the FBI. So I 
think all those issues about--whether we call it a section or 
office or a working group, I think all those technical issues 
may have been ironed out.
    Ms. Jackson Lee. Well, do you come with a knowledge of 
whether or not the Justice Department would welcome a free-
standing section, regardless of what you think has been worked 
out, versus a section that is embraced under the Criminal 
Division and the Civil Rights Division?
    Ms. Becker. The Department doesn't believe a separate 
section is necessary. However, we are committed to bringing 
these cases wherever we can and have been working very closely 
with staff on both sides to come up with a framework that I 
think everybody has found acceptable.
    Ms. Jackson Lee. The Justice Department in the passing of 
this bill would advocate for the full funding so that those 
assigned to this area would in fact be able to vigorously 
pursue these cases?
    Ms. Becker. If Congress were to approve the funds, 
certainly that would facilitate the FBI and Civil Rights 
Division's ability to review the over 100 matters that have 
been identified, too, as potential Civil Rights Era murders and 
to investigate--fully investigate and prosecute wherever 
appropriate.
    Ms. Jackson Lee. I just close by simply saying that if you 
would take a message back, as this bill progresses, compromise 
is certainly something that all of us are willing to consider. 
I, frankly, believe in an established free-standing section for 
a time certain so that full concentration could be part of it 
might be the better approach.
    Obviously, we are in the legislative process as we speak, 
but I would also just ask that you take back the message that 
we are sharply either understaffed or underfocused of the Civil 
Rights Division, because this period of time has the lowest 
prosecution of Civil Rights cases it might be in the history of 
the existence of the Civil Rights Division, and that raises 
enormous concerns for all of us who believe in the prosecution 
of cases so that people's rights can be vindicated. And I hope 
that you would convey that message.
    Ms. Becker. I will certainly convey that message, 
Congresswoman, and I will also review our statistics as well to 
see what we can provide for you in order to clarify any of 
those numbers.
    Ms. Jackson Lee. I would be happy to receive them.
    I thank the gentlelady, and I yield back.
    Mr. Nadler. I thank the gentlelady, and I yield to the 
gentleman from Iowa.
    Mr. King. I thank you, Mr. Chairman.
    I appreciate this hearing, and I appreciate your testimony.
    Just some broader questions to put this into a context for 
myself and hopefully for this panel.
    The title of the bill says that it is Unsolved Civil Rights 
Crimes, so that implies these are race-based crimes, and I 
presume they are, and I support this legislation and encourage 
prosecution investigation into these crimes. But I would ask, 
is there a sunset in this bill?
    Ms. Becker. That is correct. There is a 10-year sunset in 
the bill.
    Mr. King. That clarifies that it is envisioned that we will 
solve these cases at some point or the perpetrators will--the 
biological solution will come to the perpetrators at some 
point, and it won't be necessary to have this legislation that 
goes on and perpetuates itself. That is the main point I wanted 
to emphasize. And, also, that even though it is titled Civil 
Rights, these kind of race-based crimes can work in either 
direction.
    Is there a crime that--most of this is White on Black 
crime, I presume? Are there any incidents of it going the other 
way that are part of the investigation as well?
    Ms. Becker. I am not aware of any currently, but I have not 
reviewed the 100 plus cases that have been brought to our 
attention. But my inclination is that the vast majority, if not 
all of them, are African American victims.
    Mr. King. They are the victims, and that is what makes the 
tragedy, and it was done within a political context, too. Is 
there anything in the language that would preclude an 
investigation that might be the other direction from race.
    Ms. Becker. Let me just pull up the bill----
    Mr. King. It has to be difficult to analyze that in front 
of this panel at this time. I would just pose that question; 
and, if you would prefer, I would be happy to receive an answer 
to that after the hearing sometime.
    Ms. Becker. If I can just comment, H.R. 923 doesn't create 
new substantive legal provisions in terms of new crimes that we 
can bring. So we can look at cases that occurred prior to 
December 31st, 1969, for any Civil Rights violations that may 
have occurred prior to that time.
    Mr. King. That is my answer. I thank you very much, Ms. 
Becker; and I would yield back the balance of my time.
    Mr. Nadler. Thank you, gentleman.
    Ms. Chung Becker, our Members may have additional 
questions----
    Mr. Cohen of Tennessee. Mr. Chairman, may I ask one 
question.
    Mr. Nadler. I yield the gentleman 1 minute.
    Mr. Cohen of Tennessee. Thank you, Mr. Chairman.
    The question the gentleman from Iowa asked was a good 
question. There are these not just White on Black crimes. Some 
of these crimes are White on White people who are helping Black 
people, is that correct?
    Ms. Becker. That is correct.
    Mr. Cohen of Tennessee. So we can rest assured that some of 
the victims are not all Black victims. There are White victims, 
too. They are just people of goodwill who were trying to see 
that the law was changed to be what it should have been in the 
first place, that if we didn't have laws that permitted 
slavery, that permitted Jim Crow, that permitted and reinforced 
segregation, that these people wouldn't have to do their 
mission and their job to help make the law the way it should 
have been.
    Ms. Becker. I appreciate the clarification. That is exactly 
right. If you look at even some of the cases brought in 1960's 
like the Mississippi Burning case, for instance, you do see 
that some of the victims were either African Americans or 
persons of all colors helping African Americans.
    Mr. Cohen of Tennessee. Thank you, Mr. Chairman; and thank 
you, Ms. Becker.
    Mr. Nadler. Ms. Chung Becker, our Members may have 
additional questions after this hearing. We have had some 
difficulty getting responses to our questions in general from 
the Justice Department and timely responses when we get them at 
all. Will you promise to provide a written response to our 
written questions, should there be any, within 30 days of the 
receipt of the questions.
    Ms. Becker. I will do my best.
    Mr. Nadler. I would now like to introduce the second panel, 
if the second panel will come forward.
    The first witness is Ms. Myrlie Evers-Williams. Myrlie 
Evers is the founder of the Medgar Evers Institute and Chairman 
Emeritus of the National Association for the Advancement of 
Colored People. She was one of the pioneers of the Civil Rights 
movement, along with her husband Medgar Evers, whose 
assassination in 1963 finally saw justice through Ms. Evers-
Williams tireless efforts after 30 years.
    Ms. Evers-Williams holds a sociology degree from Panama 
College. She was the first African American woman appointed to 
serve as commissioner on the Los Angeles Board of Public Works, 
and was chairman of the NAACP from 1995 to 1998.
    A second witness is Mr. Douglas Jones, who, as U.S. 
Attorney for the Northern District of Alabama, brought the 
prosecution of the 16th Street Baptist Church bombing case, one 
of the most notorious cases of the 1960's.
    Our third witness is Mr. Richard Cohen, who is the 
president and chief executive officer of the Southern Poverty 
Law Center.
    Our next witness is Rita Bender, who is one of the most 
courageous Civil Rights workers who went to Mississippi to 
register voters in 1964. She continues to fight for justice 
today. Her husband, Michael Schwerner, was killed, along with 
Andrew Goodman and James Chaney. They were murdered because 
they stood up for justice and the rule of law in Mississippi in 
1964.
    Our final witness is Mr. Alvin Sykes, President of the 
Emmett Till Justice Campaign.
    I am pleased to welcome all of you, and at this point I am 
pleased to recognize for a brief statement Mr. Davis of 
Alabama.
    Mr. Davis. Thank you, Mr. Chairman.
    Let me have the honor of, first of all, greeting again Ms. 
Bender, Ms. Williams. We have met previously, and it is good to 
see you ladies again.
    I have the honor of saying a little bit more by way of 
introduction. Two close of friends of mine are here today. Doug 
Jones for the Northern District of Alabama, who was an 
exemplary criminal defense lawyer and exemplary United States 
attorney--and, as the Chairman pointed out, the 16th Street 
prosecution, the prosecution of two individuals who committed a 
crime that at that time was 37 and 39 years old respectively. 
Very few people thought a conviction could be obtained on 37-
year-old or 39-year-old evidence. This United States attorney 
was skilled enough to win convictions before predominantly 
White juries in both those instances, and I am glad to see him 
here and thank him.
    My first boss in the professional world--I was an intern in 
1992 at the Southern Poverty Law Center--Richard Cohen, the 
President and Chief Executive Officer of the Center, has a 
litany of outstanding constitutional cases to his pedigree, one 
of which I want to note before the Committee.
    The very first time that a civil judgment was recovered 
against the Ku Klux Klan happened based on a case in Mobile, 
Alabama. Because of Richard Cohen's appellate advocacy and his 
skill, that verdict and judgment was secured, eventually 
satisfied. I thank him for his outstanding leadership and for 
his leadership in starting the new Civil Rights center in 
Montgomery, Alabama. I was honored to be the keynote speaker on 
that occasion several years ago. Ms. Bender, I believe I met 
you there.
    So, Mr. Chairman, thank you for allowing me to recognize my 
friends who are here.
    Mr. Nadler. I thank you, gentleman.
    Again, I am pleased to welcome the witnesses. As a 
reminder, each of your written statements will be made a part 
of record in its entirety.
    I would ask that you now summarize your testimony in 5 
minutes or less. To help you stay within that time there is a 
timing light at the table. When 1 minute remains, the light 
will switch green to yellow and then red when the 5 minutes are 
up.
    Mr. Nadler. We will begin by recognizing Ms. Myrlie Evers-
Williams.

          TESTIMONY OF MYRLIE EVERS-WILLIAMS, BEND, OR

    Ms. Evers-Williams. Good afternoon, honorable Chairmen and 
Members of the Subcommittees.
    Mr. Nadler. Could you turn on your mike, please.
    Ms. Evers-Williams. All right.
    Once again, thank you, honorable Chairmen and Members of 
the Subcommittees, for the opportunity to testify in support of 
the Emmett Till Unsolved Civil Rights Crime Act, H.R. 923.
    My name is Myrlie Evers-Williams. I am president of MEW 
Associates, Inc., founder of the Medgar Evers Institute, 
chairman emeritus of the National Association for the 
Advancement of Colored People, and most widely known as the 
widow of Civil Rights leader Medgar Wiley Evers.
    Medgar Evers was the first NAACP field secretary in the 
State of Mississippi, his native home. He was the major, 
unofficial investigator in the murder of Emmett Till. He 
disguised himself as sharecropper. He frequently changed the 
cars and trucks that he drove to gather information that was 
sent beyond Mississippi's ``cotton curtain'' to media sources 
elsewhere. He met with and assisted relatives of Emmett Till, 
including Ms. Mamie Till-Mobley. Medgar's involvement in this 
case was reported in depth, particularly in the Johnson 
publications of Ebony and Jet magazines.
    How appropriate for me to be here today remembering Emmett 
Till and the many others, known and unknown, who were 
permanently disposed of through hate, fear and racism. Medgar 
Ever's assassination was the first, the first of the modern 
Civil Rights era to receive international coverage. Our family 
received telegrams, letters and cards from around the world 
expressing horror, disgust, shame and just plain condolences, 
with also a small number of hate letters that expressed joy at 
his assassination. These letters and Medgar's personal papers 
now reside at the Mississippi Department of Archives of History 
in Jackson, Mississippi.
    Today is June 12, 2007. It marks the 44th anniversary of 
Medgar's assassination, which was June the 12, 1963.
    On the night of June 11, 1963, President John F. Kennedy 
addressed the Nation on Civil Rights issues. Shortly after 
midnight June the 12, Medgar was shot in the back with a high-
powered rifle as he got out of his car returning home from a 
long, exhaustive day of demanding activity. He had been the 
voice for justice and equality in Mississippi. Many of those 
years, he was alone, with little support, mostly because of 
fear of retaliation that paralyzed others from active and open 
participation in societal change. There was a time when there 
was little media coverage, when Civil Rights was not the ``in'' 
thing to be involved in.
    Medgar was the spokesperson, the caregiver for the 
downtrodden in Mississippi. His bravery put him as number one 
on the Klan's hit list. Death was his daily companion, and we 
knew it. Medgar's awareness did not begin with his NAACP 
position. He served in the Army during World War II in 
Normandy. He returned home, was honorably discharged and 
enrolled at Alcorn High School and Alcorn A&M College. He 
graduated with a degree in business administration.
    While employed with the Magnolia Mutual Life Insurance 
Company, he applied for admission to the University of 
Mississippi Law School, becoming the first African American to 
do so, long before he assisted James Meredith in entering Ole 
Miss.
    Believing a solid education was important for all citizens, 
he filed a suit in the name of our first son, Darrell Kenyatta 
Evers vs. the State of Mississippi. The result: The legal 
battle was won, and the schools were desegregated, providing 
the promise of an equal education for all.
    The successful voter registration drives, the economic 
boycotts, removal of barriers to parks, libraries, 
entertainment centers, transportation, hiring of police 
officers, equalization of teachers' salaries and many other 
gains came as a result of Medgar's dedication to equal 
opportunity. This was a man who wanted no glory for himself but 
who knew that his country could be a better place for all of 
its citizens.
    There are numerous other accounts of his determination and 
the growing number of activists who joined in the pursuit of 
the American Dream in spite of the price to be paid. However, 
shortly after Medgar's assassination, change, though small, 
became evident. School crossing guards were hired. A few 
policemen were hired with the restrictions to only enforce the 
law within their neighborhoods. Libraries and recreational 
facilities were open to all.
    Perhaps public attitude spoke louder than ever. After the 
first memorial service in Jackson, Mississippi, thousands 
marched from the Masonic Temple on Lynch Street to downtown 
Farrish Street in Jackson, chanting, ``After Medgar, no More 
Fear.'' details and photos appear in Life Magazine, June, 1963. 
Fear, one of the strongest hold-backs on freedom, was at last 
being erased.
    As we look at the passage of the Emmett Till Unsolved Civil 
Rights Crime Act, let us not forget that family members of the 
persons murdered are also victims. They are human beings who 
must survive the loss of their loved ones and all that that 
entailed. The emotional hell that can never completely 
disappear; the nightmare of the bloody crime scene; the sounds 
of terror; the firebombs; the sound of gunfire; missing that 
person's love, care and guidance; the loss of financial support 
and so much more.
    Yet there are those who say that Civil Rights cold cases 
should remain lost in our history. No one benefits. The men are 
old and will soon die, so why bother? Besides, it costs the 
public too much to finance such projects. But murder is murder. 
They were young murderers who happened to grow old. Life was 
something denied those whose lives were so brutally taken.
    I set forth on a mission to see that justice would prevail 
in Medgar's case, based on a promise I made to him shortly 
before his death.
    The first trial was another first. No White had been tried 
for the murder of a Black in Mississippi. The first and second 
trials both ended in a hung jury. The messages sent to the 
public was that ``old southern justice'' remained intact.
    I was on the witness stand testifying when Governor Ross 
Barnett entered the courtroom, paused, looked at me and 
proceeded to walk to the defendant, shook his hand, gave a 
``good old boy'' slap on his back and sat with him throughout 
my testimony. The message had been sent to the jury: Do not 
convict this man.
    Now, I ask you, Members of the Committee, may I have your 
permission just to finish this? It will take just a second. 
Thank you.
    After the first trial, the accused assassin was given a 
parade with support banners along the highway from Jackson to 
his home in the Delta. During the next election, the district 
attorney ran for governor and the assassin ran for lieutenant 
governor. I think that was quite a ticket.
    Years passed. I returned to Mississippi on a regular basis, 
always questioning people in various parts of the territory for 
any information that may have heard discussed relevant to the 
Evers case. Most people claimed that I was insane. ``Keep 
trying, never give up'' became my motto.
    Then entered Jerry Mitchell, a reporter with the Clarion 
Ledger newspaper. He provided me with the hope that some new 
information had been uncovered, and one miracle after another 
took place. Missing witnesses were found and were willing to 
testify; numerous boxes of evidence were found; the murder 
weapon was found; my personal State-stamped transcript of the 
first trial was hand-delivered to the District Attorney; FBI 
cooperated; and a few politicians voiced support that the time 
had come to right the wrongs of our society.
    The conviction of the murderer came on February 5th, 1994, 
almost 30 years to the day of the first trial. Reporters from 
around the world were there to broadcast the guilty verdict. 
Our American justice system became stronger.
    The Medgar Evers case and third trial became a road map for 
all of the others that have followed. The legal issues: speedy 
trial, court approval to have a previous transcript read in 
court, and other legal matters were settled in this case.
    Since Medgar's case, 29 cases have been reexamined with 29 
different arrests and 22 convictions, with one trial still 
ongoing in Mississippi.
    One noted Civil Rights leader said at the Arlington 
Cemetery service for Medgar, that Medgar believed in this 
country, now it remains to be seen if his country believes in 
him.
    The passage of a bill named in honor of Emmett Till would 
send a message that the country indeed does believe in Medgar 
and others like him and in the cause of justice. It is a 
message that is particularly important to send to the young 
people of today and generations yet to come.
    Thank you.
    Mr. Nadler. I thank you.
    [The prepared statement of Ms. Evers-Williams follows:]
             Prepared Statement of Myrlie B. Evers-Williams
    Thank you, Honorable Chairmen and Members of the Subcommittees, for 
the opportunity to testify in support of the Emmett Till Unsolved Civil 
Rights Crime Act (HR 923).
    My name is Myrlie Evers-Williams. I am President of MEW Associates, 
Inc., Founder of the Medgar Evers Institute, Chairman of the National 
Association for the Advancement of Colored People (NAACP), and most 
widely known as the widow of civil rights leader, Medgar Wiley Evers.
    Medgar Evers was the first NAACP Field Secretary in the State of 
Mississippi--his native home. He was the major, unofficial investigator 
in the murder of Emmett Till. He disguised himself as a sharecropper. 
He frequently changed the cars and trucks that he drove to gather 
information that was sent beyond Mississippi's ``cotton curtain'' to 
media sources elsewhere. He met with and assisted relatives of Emmett 
Till, including Mrs. Mamie Till-Mobley. Medgar's involvement in this 
case was reported in depth, particularly in the Johnson publications of 
Ebony and Jet magazines.
    How appropriate for me to be here today remembering Emmett Till and 
the many others, known and unknown, who were permanently disposed of 
through hate, fear, and racism. Medgar Evers' assassination was the 
first, the first of the modern civil rights era to receive 
international coverage. Our family received telegrams, letters, and 
cards from around the world expressing horror, disgust, shame and just 
plain condolences, also a small number of hate letters that expressed 
joy in his assassination. These letters and Medgar's personal papers 
now reside at the Mississippi Department of Archives and History in 
Jackson, Mississippi.
    Today is June 12, 2007. It marks the 44th Anniversary of Medgar's 
assassination (June 12, 1963).
    On the night of June 11, 1963, President John F. Kennedy addressed 
the nation on Civil Rights issues. Shortly after midnight, June 12, 
1963, Medgar was shot in the back with a high-powered rifle as he got 
out of his car, returning home from a long exhaustive day of demanding 
activity. He had been the voice for justice and equality in 
Mississippi. Many of those years, he was alone with little support, 
mostly because of fear of retaliation that paralyzed others from active 
and open participation in societal change. That was a time when there 
was little media coverage, when civil rights was not the ``in'' thing 
to be involved in.
    Medgar was the spokesperson, the care giver for the downtrodden in 
Mississippi. His bravery put him as number 1 on the Klan's hit list. 
Death was his daily companion, and we knew it. Medgar's awareness did 
not begin with his NAACP position. He served in the army during World 
War II in Normandy. He returned home, was honorably discharged and 
enrolled at Alcorn High School and Alcorn A&M College. He graduated 
with a Degree in Business Administration.
    While employed by Magnolia Mutual Life Insurance Co., he applied 
for admission to the University of Mississippi Law School, becoming the 
first African-American to do so, long before he assisted James Meredith 
in entering Ole Miss.
    Believing that a solid education was important for all citizens, he 
filed a suit in the name of our first son--Darrell Kenyatta Evers vs. 
the State of Mississippi. The result: The legal battle was won, and the 
schools were desegregated, providing the promise of an equal education 
for all.
    The successful voter registration drives, the economic boycotts, 
removal of barriers to parks, libraries, entertainment centers, 
transportation, hiring of police officers, equalization of teachers' 
salaries and many other gains came as a result of Medgar's dedication 
to equal opportunity.
    This was a man who wanted no glory for himself but who knew that 
his country could be a better place for all its citizens.
    There are numerous other accounts of his determination and the 
growing number of activists who joined in pursuit of the American Dream 
in spite of the price to be paid. However, shortly after Medgar's 
assassination, change, though small, became evident. School crossing 
guards were hired. A few policemen were hired with restrictions to only 
enforce the law within their neighborhoods. Libraries and recreational 
facilities were open to all.
    Perhaps public attitudes spoke louder than ever. After the first 
memorial service in Jackson, Mississippi, thousands marched from the 
Masonic Temple on Lynch Street to downtown Farrish Street, chanting 
``After Medgar, no more fear.'' (Details and photos in Life, June 
1963). Fear, one of the strongest hold-backs on freedom, was at last 
being erased.
    As we look to the passage of Emmett Till Unsolved Civil Rights 
Crime Act (HR923), let us not forget that family members of the persons 
murdered are also victims. They are human beings who must survive the 
loss of their loved ones--and all that that entailed . . . the 
emotional Hell that never completely disappears; the nightmare of the 
bloody crime scene; the sounds of terror; the firebombs; the sound of 
gunfire; missing that person's love, care and guidance; the loss of 
financial support and so much more.
    Yet there are those who say that civil rights ``cold cases'' should 
remain lost in our history--``no one benefits--the men are old and will 
soon die, so why bother? Besides it costs the public too much to 
finance such projects.'' But, murder is murder. They were young 
murderers who grew old. Life was something denied those whose lives 
were so brutally taken.
    I set forth on a mission to see that justice would prevail in 
Medgar's case, based on a promise I made to him shortly before his 
death.
    The first trial was another first. No White had been tried for the 
murder of a Black in Mississippi. The first and second trials both 
ended with a hung jury. The messages sent to the public were that ``old 
Southern justice'' remained intact. I was on the witness stand 
testifying when Governor Ross Barnett entered the courtroom, paused, 
looked at me and proceeded to walk to the defendant, shook his hand, 
gave a ``good ole boy'' slap on his back and sat with him throughout my 
testimony. The message had been sent to the jury: ``do not convict this 
man.''
    After the first trial, the accused assassin was given a parade with 
support banners along the highway from Jackson to his home in the 
Delta. During the next election, the District Attorney ran for Governor 
and the assassin ran for Lt. Governor. What a ticket!
    Years passed. I returned to Mississippi on a regular basis, always 
questioning people in various parts of the territory on any information 
that may have heard discussed relevant to the Evers case. Most people 
claimed that I was insane. ``Keep trying, never give up'' became my 
motto.
    Then entered Jerry Mitchell, a reporter with the Clarion Ledger 
newspaper. He provided me with hope that some new information had been 
uncovered.
    One miracle after another took place. Missing witnesses were found 
and were willing to testify; numerous boxes of evidence found; murder 
weapon found; my personal State-stamped transcript of the first trial 
was hand-delivered to the District Attorney; FBI cooperation; and a few 
politicians voiced their support that the time had come to right the 
wrongs of our society.
    The conviction of the murderer came on February 5, 1994, almost 30 
years to the day of the first trial. Reporters from around the world 
were there to broadcast the guilty verdict. Our American Justice System 
became stronger.
    The Medgar Evers case and third trial became a roadmap for all of 
the others that have followed. The legal issues: speedy trial, court 
approval to have a previous transcript read in court, and other legal 
matters were settled in this case.
    Since Medgar's case, 29 cases have been reexamined with 29 
different arrests and 22 convictions, with one trial still ongoing in 
Mississippi.
    One noted civil rights leader said at the Arlington Cemetery 
service: ``Medgar believed in his country, now it remains to be seen if 
his country believes in him.''
    The passage of a bill named in honor of Emmett Till would send the 
message that the country indeed does believe in Medgar and in the cause 
of justice. It is a message that is particularly important to send to 
the young people of today and to generations to come.

    Mr. Nadler. Mr. Jones.

            TESTIMONY OF G. DOUGLAS JONES, ESQUIRE, 
                         BIRMINGHAM, AL

    Mr. Jones. Thank you, Mr. Chairman, Members of the 
Committee. I am honored to be here today to testify in favor of 
this hearing.
    On a personal note, it is especially a privilege for me to 
be back on the Hill as a former Senate Judiciary staffer to 
Senator Howell Heflin, who was my mentor and largely 
responsible for my career.
    Mr. Chairman, I want to talk just briefly about some of the 
practicalities of these cases. You will hear from others about 
what they mean; and, obviously, these cases mean so much to so 
many people. It is just hard to imagine until you have lived it 
or even prosecuted it.
    I am reminded of another victim's mother, the mother of 
Carole Robertson, one of the children who died in the church 
bombing. Her mother, Alpha Robertson, testified in the case. 
When I asked her what she was doing, she heard the bomb and it 
sounded like the whole world was shaking.
    And in fact, that was the thing we adopted because the 
whole world did shake at the sound of that bomb in Birmingham, 
Alabama in 1963. But there are some very practical points that 
I want to bring out today. The difficulties in overcoming these 
cases are obvious. Witnesses die. Defendants die. Witness' 
memories fade. Legal challenges. Evidentiary challenges. But 
there is even some more beyond that. One of the points I would 
like to make for this bill is to ensure that there is language 
in this bill that there is some openness in sharing of 
information.
    The Congressman from Tennessee asked a question a few 
minutes ago about missing files. I believe there are missing 
files. In a case that is pending in Alabama right now, the 
Jimmy Lee Jackson case, I received a call from a reporter in 
Anniston, Alabama the other day who had been told repeatedly 
and repeatedly that FBI files didn't exist, the old summaries 
didn't exist. They had not been turned over to the local DA. 
That case is pending. They had not been turned over to the 
local defense. But yet, lo and behold, a file appeared from 
some archive in Missouri with all the interviews in the Jimmy 
Lee Jackson case.
    There are difficulties. There are things in those files 
that quite frankly, and I am being brutally honest about this, 
there are probably things in those files that the Department of 
Justice and the FBI just really don't want the public to see. 
It was not a pretty picture in the 1950's, in the 1960's. One 
of the critical components of our case against Tommy Blanton 
was a tape recording made without a warrant in 1964 in his 
home. And it was the seminal conversation in which Tommy 
Blanton, and his then-wife Jean talked about the bombing. You 
have a transcript in what I provided to you today. Before we 
did the motion to suppress I got a call from our local FBI 
agent-in-charge. And she was just a messenger because she was 
all in favor, as was the FBI. Everyone was in favor of these 
questions--all of these prosecutions, but the devil is in the 
details. And they were worried about going forward with the 
motion to suppress because they were afraid that the tape, 
couldn't get it into evidence and it would, in fact, embarrass 
the FBI.
    Well, through some pretty good lawyering, not on my part, 
but I got a great staff, we did get the tape into evidence, we 
did not embarrass the FBI. But I think some of those attitudes 
are still prevalent. And my point is that there are a lot of 
files. And those files have to be open to all prosecutors 
within the Department of Justice and in state with State 
investigators and State prosecutors if that is where these 
cases end up being prosecuted. The second aspect is funding.
    And I appreciate the fact that there is funding for this 
bill. It takes a lot to prosecute these cases. It takes a lot 
of money to investigate these cases. And I hope this bill not 
only will allow for the Department of Justice to use that 
funding to investigate and prosecute cases, but I also hope it 
will allow the Department to redirect some of those resources. 
Because as a practical matter most of these cases are going to 
be prosecuted if at all in state court. I think the 
jurisdictional and constitutional challenges with resurrecting 
these for Federal jurisdiction is going to be very, very 
difficult. My district attorney in Jefferson County, Alabama or 
the Alabama attorney general would not have the opportunity to 
fund these cases and to do them properly.
    The third thing, and the third and fourth are actually 
together. I also think that we have to manage expectations. 
These cases are very difficult. They mean so much to the 
victims. They mean so much to the communities. But they are, at 
the end, very, very tough cases. And no one should get their 
hopes up that all of these 100 cases the Department is looking 
at now will ultimately end up in a prosecution. They have to be 
done the right way, they have to be done zealously, but also 
fairly, because the defendants also have rights as well.
    And I hope as part of that, my last point is that as we 
proceed with these, that we as a society, not just through this 
bill, but we as a society will also examine other ways. For 
those cases, that can't be prosecuted there has to be some form 
of reconciliation. We are a country of compassion. And in 
working with victims and others hopefully there can be some 
form of reconciliation.
    Mr. Chairman, I applaud the Committee, I applaud my friend, 
Congressman Lewis and Senator Dodd, over on the Senate for 
doing this. If we are to be serious about the war on terror, we 
have to acknowledge that it began long before September 11, 
2001. And this bill and the funding it provides will help 
alleviate the problems. And as I said, following the cases of 
Tommy Blanton and Bobby Frank Cherry, justice delayed will not 
have to be justice denied. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Jones follows:]
                 Prepared Statement of G. Douglas Jones
    On September 15, 1963, four young African-American girls, Denise 
McNair, Addie Mae Collins, Cynthia Wesley and Carol Robertson, died 
from a bomb blast that ripped into the ladies lounge of the Sixteenth 
Street Baptist Church in Birmingham. The shockwave created by this 
senseless tragedy was felt around the world and proved to be a pivotal 
point in the struggle for civil rights in this country. On May 1, 2001, 
a jury in Birmingham convicted Thomas Edwin Blanton, Jr. of murder for 
his role in the bombing. A year later, on May 22, 2002, another 
Birmingham jury convicted Bobby Frank Cherry, the last surviving 
suspect in the crime. During the decades between these historic events, 
Alabama experienced a phenomenal shifting of attitudes which made the 
prosecutions possible. Yet, the passage of time also created numerous 
legal obstacles. Some of the strategies used in this overcoming these 
obstacles were particular to this unique case. Most, however, were the 
tools and techniques we as trial lawyers use throughout our careers.
    Much can be written and said about the case of State of Alabama v. 
Thomas Edwin Blanton, Jr. and the case of State of Alabama v. Bobby 
Frank Cherry. What follows is only a brief answer to a couple of 
frequently asked questions and a summary of how the cases came together 
for trial.
          ``why was the case re-opened after so many years?''
    In the spring of 1974, I had the privilege of spending the better 
part of an afternoon with the late U.S. Supreme Court Justice William 
O. Douglas. It was the occasion of the twentieth anniversary of the 
Brown v. Board of Education decision and Justice Douglas was the Law 
Day Speaker for the University of Alabama School of Law. Although an 
undergraduate at the time, Justice Douglas and I were in the same 
college fraternity and I had arranged for the Court's senior justice to 
come by my fraternity house for a reception following her activities at 
the law school. Aspiring to head to law school following graduation, I 
asked him what advice he would give a law student. He asked me what I 
wanted to do with my law degree and I replied that I wanted to be a 
trial lawyer. His advice, ``go to court as often as you can. Learn to 
be a trial lawyer by observing trial lawyers.''
    Three years later I took Justice Douglas' advice to somewhat of an 
extreme. As a second year law student at Cumberland School of Law, I 
decided I could get more out of watching one of the state's most 
historic trials than attending some of my classes. As much as I felt I 
could get away with that week in November, 1997, I skipped classes to 
hang out in the balcony of Judge Wallace Gibson's courtroom in the 
Jefferson County Courthouse to watch then Attorney General Bill Baxley 
prosecute Robert Chambliss for the September, 1963 boming of the 16th 
Street Baptist Church and the murder of Denise McNair. It was clear 
from the testimony that Chambliss did not act alone. But as I gave my 
undivided attention to Baxley's powerful closing argument, I never in 
my wildest imagination dreamed that one day this case and my legal 
career would come full circle, giving me the opportunity, some 24 years 
later to prosecute the two remaining suspects for a crime that many say 
changed the course of history. It has been, to say the least, a 
remarkable journey.
    In a world where two years is a long time to get your case on the 
trial docket, this case was facing trial almost forty years after the 
crime. The FBI had done an extensive investigation following the 
bombing, but the case was closed without any prosecutions in 1968. By 
all indications, the case was closed by FBI Director J. Edgar Hoover 
without consulting the attorneys at the Justice Department. Despite 
Hoover's posthumous reputation, it appears Hoover was genuinely 
concerned about the ability to obtain a conviction. Although he was 
probably right, any decision about a prosecution should have been made 
by a prosecutor, not an investigator.
    In 1971, newly elected Attorney General Bill Baxley re-opened the 
case and made it one of, if the not the highest, priorities of his 
office. Most, but not all, materials were given to Baxley for the 1977 
prosecution of Robert ``Dynamite Bob'' Chambliss, who was convicted of 
the first degree murder of Denise McNair. It was clear from the 
evidence, however, that Chambliss did not act alone. Unfortunately, 
when Baxley left office in 1978, the investigation was once again 
shelved, with only some sporadic review over the next 20 years. But by 
1996, a couple things occurred that breathed new life into what 
otherwise appeared to be a dead issue.
    First, the newly installed special agent in charge of the 
Birmingham FBI office began to reach out to the African-American 
community to mend fences that had broken down over the highly 
publicized corruption investigation into Birmingham City Hall. One of 
the concerns being expressed by black leaders was why the 16th Street 
church bombing case had not been re-examined. At about the same time, 
the conviction of Byron de la Beckwith for the 1963 murder of civil 
rights activist Medgar Evers proved that a prosecution of these 
forgotten cases can be successful with a new generation of southern 
jurors. The time seemed right for another look at the church bombing 
case that had remained an open wound for Birmingham.
          ``how and where do you begin with a case that old''
    All of the old investigative files remained at the Birmingham 
office of the FBI. Special Agent Bill Fleming was assigned the task of 
compiling the file and beginning the painstaking task of review. He was 
joined by Birmingham Police Detective Ben Herren, who was assigned to 
work the case full time. Ben would later retire and finish the case as 
an FBI Reasearch Analyst. Slowly and methodically the agents began the 
painstaking process of sifting through thousands of pages of interviews 
of witnesses and informants.
    Once the files had been reviewed and the agents felt that they had 
a handle on the facts, it was time to begin interviewing witnesses. Old 
witnesses from the earlier investigation, who were still alive, as well 
as recent acquaintances and family members of Chambliss, Cherry, 
Blanton and others were identified for questioning. But before the FBI 
would take to the streets, and thereby expose the fact that the case 
was being re-examined, what proved to be a critical decision was made 
concerning the first interview to be conducted.
    By all indication, Bobby Frank Cherry was a cocky Klan member in 
the 60's whose name kept coming up whenever there was trouble. He had 
been interviewed a dozen times or more in the 60's, each time denying 
any involvement in the crime, but each time giving the impression that 
he wanted to brag about his involvement. Cherry was a talker and if 
there was anyone who might say something to crack the case it was 
likely him. Interviewing him first was what turned out to be the first 
of many strategic moves that paid off.
    In the summer of 1997, Ben Herren and Bob Eddy, who had been 
Baxley's investigator in the 70's, interviewed Cherry in Texas for 
about two hours. Although now almost 70 years old, Cherry was as cocky 
and defiant as ever. His two hour interview provided some helpful 
information, but it was his post interview press conference that really 
jump started the case. Although nothing had been publicized about the 
case being re-opened, Cherry decided to call a press conference to 
proclaim his innocence and to denounce the agents for continuing to 
hound him. When he did, the phones at the FBI began ringing: Cherry's 
granddaughter called to say she had overheard her grandfather admit to 
blowing up the church and that everyone in the family knew the story; a 
co-worker from his Texas carpet cleaning days called to say Cherry had 
admitted his involvement to him back in the early 80's; and a man who 
was a friend of Cherry's oldest son and only 11 years old at the time 
of the bombing called to say that in the days before the bombing he had 
been at the Cherry house and overheard Cherry and three other men 
talking about a bomb and the 16th Street Baptist Church. The Cherry 
interview provided the breaks that were needed to move the 
investigation forward; to hopefully bring closure to the case that had 
been so intensely investigated by the FBI and continued by Baxley.
                          ``federal v. state''
    Shortly after the Cherry interview and press conference I was sworn 
in as United States Attorney for the Northern District of Alabama 
September 8, 1997. What I found with this file was that while the new 
witnesses had sparked some hope, there was very little else that was 
encouraging. There was no forensic evidence from the scene, no DNA and 
no residue of explosive material. There were no eyewitnesses, or at 
least none that had come forward. There were no co-conspirators who had 
decided to get this off their chest before they pass from this life 
into the next. Over the years many potential witnesses, and suspects, 
had died and many others were elderly and frail. What we did have was a 
series of circumstances, including many of the prior statements of 
Blanton and Cherry, that clearly pointed to the guilt of these two men.
    We assembled a team to begin the next phase of the investigation 
that would include having witnesses appear before a federal grand jury. 
Robert Posey, a former state Assistant District Attorney and a 10 year 
veteran of the U.S. Attorney's office, was assigned to assist. Jeff 
Wallace, one of the most seasoned prosecutors in the Jefferson County 
DA's office came on board. Following the Blanton trial, Assistant U. S. 
Attorney Don Cochran, who had also been a former state assistant DA, 
was added to assist in the Cherry trial. It was essential that we have 
both state and federal prosecutors looking at this case because there 
was no way to tell which forum would be chosen should we seek 
indictments.
    Initially, all investigation was conducted out of the U.S. 
Attorney's office and the federal grand jury. Grand Jury subpoenas from 
a federal grand jury had a much larger reach for the many witnesses 
from out of state. There were also more resources out of the Department 
of Justice that we could draw on for witness expenses.
    Federal jurisdiction, however, hung by a thread. The statute of 
limitations for all civil rights violations had long since ran. 
However, under 18 U.S.C. 841, et. seq, as it was written in 1963, there 
was no statute of limitation when a death resulted from the offense of 
interstate transportation of explosives. The problem for us was that 
with no forensic evidence we did not know exactly what explosives were 
used, much less where they came from. Fleming and Herren chased leads 
all over the country, particularly about dynamite coming out of Atlanta 
and Kentucky, but to no avail. In the end, there was no proof of any 
interstate transportation of explosives leaving a state murder charge 
in Jefferson County as our only option.
    In May of 2000, with the express approval of both U.S. Attorney 
General Janet Reno and Alabama Attorney General Bill Pryor, we began 
presenting our case to a state grand jury. Three days later the Grand 
Jury indicted Tommy Blanton and Bobby Frank Cherry for the murder of 
the four young girls who died in the bomb blast of the 16th Street 
Baptist Church.
                  ``surviving the motion to dismiss''
    Defense lawyers for both defendants filed motions to dismiss the 
indictments, citing the age of the case and the loss of witnesses as 
evidence that their clients would be denied a fair trial if forced to 
defend themselves on a 38 year old murder charge. The law in Alabama, 
however, is difficult for a defendant to be successful in this type of 
motion. The defendant must show not just a delay, but an intentional 
delay designed to gain a tactical advantage and that the delay caused 
actual substantial prejudice to the conduct of his defense. Defendants 
failed on both counts. In fact, I believe that the State was more 
prejudiced by the delay than the defendants. For instance, a witness 
visiting from Detroit identified Tommy Blanton's car as the car parked 
behind the church at 2:00 a.m. on the morning of the bombing. Robert 
Chambliss and two other unidentified white men were in the car. This 
witness testified against Chambliss, but died in 1985, thereby losing 
forever critical testimony.
         ``surviving the motion to suppress the kitchen tape''
    In piecing together the chronology of events leading up to the 
bombing on Sunday morning, there were a series of meetings at the 
Modern Sign Shop, a local gathering spot for the Klan and anti-
integration crowd, and at the Cahaba River Bridge, where Chambliss and 
Blanton were recruiting others to form a new Klan klavern. Blanton and 
his girlfriend, Jean, told agents that Blanton broke his date with Jean 
on Friday night before the bombing to make signs at the sign shop. 
Cherry, after initially stating he was at home that Friday night, 
admitted that he was also at the sign shop and that Blanton and 
Chambliss were both there. The significance of these interviews, given 
in the early stages of the investigation in 1963, was not realized 
until January, 2000, when Ben Herren was reviewing tape recordings 
prior to releasing them to the defense.
    The bombing of the 16th Street Baptist Church was the first in the 
civil rights era that had resulted in deaths. The tragedy energized the 
FBI to find the murders and the to prevent further violence. While 
scores of agents hit the streets interviewing witnesses and working 
informants, FBI Director Hoover and Attorney General Robert F. Kennedy 
personally approved the use of wiretaps and electronic ``bugs'' on the 
telephones and at the homes of numerous suspects.
    While reviewing one of those tapes, made by a ``bug'' under the 
kitchen sink in Blanton's apartment, Ben Herren made a remarkable 
discovery.
    It was June of 1964. Tommy Blanton had married Jean and, in the 
presence of an unknown third person, they were discussing the Friday 
night broken date and their FBI interviews. Captured on tape was the 
following conversation, which proved to be the critical piece of 
evidence in this case:

        JEAN:
                    Well, you never bothered to tell me what you went 
        to the river for Tommy.

        TOMMY:
                    What did you tell them I did?

        JEAN:
                    You didn't even.

        TOMMY:
                    What did you tell them I did at the river? What did 
        they ask you I did at the river?

        JEAN:
                    They asked me what you went for and I told them I 
        didn't know.

        TOMMY:
                    They were interested in that meeting that I went 
        to. They knew I went to the meeting.

        JEAN:
                    What meeting?

        TOMMY:
                    To the Big One.

        JEAN:
                    What Big One?

        TOMMY:
                    The meeting where we planned the bomb.

        JEAN:
                    Tommy, what meeting are you talking about now?

        TOMMY:
                    We had that meeting to make the bomb.

        JEAN:
                    I know that.

        TOMMY:
                    I think I'll wear this sh--I'm going to wear this 
        shirt.

        JEAN:
                    It's what you were doing that Friday night when you 
        stood me up.

        TOMMY:
                    (UI) Oh, we were making the bomb.

        JEAN:
                    Modern Sign Company.

        TOMMY:
                    Yeah

    Naturally, Blanton's defense team filed a Motion to Suppress, 
claiming a violation of the Forth Amendment. The microphone had, in 
fact, been placed in the Blanton apartment under orders from FBI 
headquarters, but without any court order or judicial review. What our 
research indicated, however, was that exceptions to the ``exclusionary 
rule'' provided a window of opportunity for the admission of this 
critical evidence.
    To begin with, in 1963, there were no provisions for court approved 
electronic surveillance as there are now. A search warrant was not 
available because the items to be seized, conversations, could not be 
particularly described in an affidavit. The executive branch of 
government could, however, utilize electronic surveillance for national 
security purposes. Although one could question how a local KKK member 
could involve national security, we cleared that hurdle by reminding 
the court of the climate of the time: the deaths cause by the blast and 
the unrest in the community, concerns over Communist influence on both 
sides of the civil rights struggle, the common practice of federalizing 
national guard troops to keep order and the assassination of President 
Kennedy that occurred just 2 months after the bombing. Moreover, 
determining what was or was not national security was exclusively an 
executive branch function. The evidentiary problem for us was that the 
law at the time only permitted electronic surveillance for intelligence 
purposes. Use as evidence in a trial was prohibited.
    The law involving the use of electronic surveillance has been 
altered considerably since 1963. In 1968 Congress passed a wiretapping 
and electronic surveillance law which requires all law enforcement, 
state or federal, to get court approval before such investigative tools 
can be used in criminal investigations and trials. The statute also 
provides for the exclusion of evidence if a court order is not obtained 
or the law not followed. See 18 U.S.C. 2510, et. seq. The exclusionary 
rule for ``bugs'' that exists by statute is important when considering 
the exclusionary rule developed by caselaw. Over the years, the Supreme 
Court has chipped away at the once rigid, absolute rule of exclusion of 
any illegally seized evidence. Today there are exceptions for, among 
other things, good faith and inevitable discovery. Today's Supreme 
Court has held on more than one occasion that the exclusionary rule is 
not one of punishment of the offending officer in a particular case, 
but one of deterrence for future cases and that the value of the truth 
seeking process must be weighed against the value of deterrence. In 
this case, when there exists an legislative statute that completely 
governs the use of electronic ``bugs'' there is no deterrent value to 
excluding evidence based on conduct that occurred long before the 
statute went into effect. When weighed against the truth seeking 
process, as was obvious by the content of the tape, it seemed clear 
that the suppression motion should be denied. Judge Garrett agreed and 
our jury was able to hear an admission out of Blanton's own mouth.
    Interestingly, on appeal, Attorney General Pryor and his staff 
developed an even stronger argument. Overlooked in our efforts during 
the suppression hearing was a document from the FBI that indicated that 
the microphone had been placed ``without trespass.'' At trial, Ralph 
Butler, the FBI tech who installed the mike testified that when the 
wall was torn out from the apartment that the FBI rented next to 
Blanton, they discovered a small hole in Blanton's wall. The microphone 
was then place on the inside of the wall, not intruding into the 
Blanton residence. The evidence is critical to a review of the law that 
existed at the time in that a ``bug'' placed without any trespass was 
admissible under the 1928 case of Olmstaed vs. United States, 277 U.S. 
438 (1928). The appeal was argued before the Alabama Court of Criminal 
Appeals on May 20, 2003.
          ``selecting the jury: the use of jury consultants''
    Jury selection is always critical, but in these cases there seemed 
to be so many more issues that permeated the case that could influence 
a juror: the age of the defendants, the age of the case, the historical 
significance of the case, the racial overtones, the life experiences of 
each juror living in the South, then and now. To assist in jury 
selection, we brought in two highly regarded consulting firms who were 
experts in the process. Andy Sheldon, of Sheldon & Associates in 
Atlanta, had assisted the prosecution in two other high profile civil 
rights cases in Mississippi, including the Medgar Evers murder case. 
Steve Patterson and Norma Silverstein, with Vinson & Dimitri of Los 
Angeles, had assisted in a number of high profile and juror sensitive 
cases, such as the McVeigh case and former Louisiana governor Edwin 
Edwards. Together they were a powerful and insightful team.
    The first step was to conduct a focus group where pieces of the 
case were presented to a panel of randomly chosen citizens. There were 
two separate groups, moderated by Andy and Norma, in more of a 
discussion fashion than a mock trial. They also discussed three 
separate cases, our bombing case, the Eric Rudolph case, and the O.J. 
case, in order to mask who was staffing the presentation. Various 
themes were tested, as were the strengths and weaknesses of key pieces 
of evidence. Through a one-way glass prosecutors and agents were also 
able to observe the dynamics between the various age, gender and ethnic 
origins of the participants.
    The second stage of the process was a community attitude survey, 
built on questions developed from the focus groups. This was an 
extensive telephone survey that went into great detail regarding 
potential jurors' opinions of the case, the impact of media coverage, 
race relations, and general themes. The results were broken down by 
age, gender, race and address. What we learned was that by in large the 
participants had heard of the case through the media, but had not 
formed a hard opinion about guilt or innocence; that neither the age of 
the case nor the age of the defendants were a concern if the evidence 
existed and that some of our strongest evidence was the inconsistent, 
and what we believed to be lies, statements of the defendants about 
their whereabouts that weekend. We were also encouraged that the 
attitudes on race and race relations clearly proved that Alabama has, 
in fact, come a long way from where we were as a state in the 1960's.
    Judge James Garrett had already indicated that he would allow the 
use of a juror questionnaire when jury selection began. After 
dissecting the results of the focus groups and the survey, and after 
receiving input from the defense, a questionnaire consisting of 100 
questions was proposed. The questionnaire dealt with just about 
everything from the routine questions about the jurors' backgrounds and 
knowledge of the witnesses, to more detailed information covering the 
books they read, the television shows they watch, the radio programs 
they listen to, their knowledge about the case and their opinions on 
race relations.
    Because questions arose concerning Cherry's competency, the two 
cases were severed so that while Blanton proceeded to trial, Cherry was 
undergoing mental evaluations. Prior to the Blanton trial our 
consultants argued for a ``mock trial'' to test the various themes and 
defenses. I resisted for fear that in this age of commercialization of 
high profile cases we could not control the confidentiality of our 
evidence, which could jeopardize our venue in Birmingham. For the 
Blanton trial we waded into the jury selection process armed with a 
great deal of information, but no true test of our case. However, 
because the evidence in the two cases was considerably different, and 
even though Blanton had been convicted, the decision was made to test 
the Cherry evidence in a mock trial. Don Cochran, who had not 
participated in the Blanton case and was thus probably not as easily 
recognized by the participants, prosecuted the State's case. Assistant 
U.S. Attorney, Mike Rasmussen, presented the case for the defense. Both 
did an excellent job of presenting what turned out to be a pretty 
accurate rendition of the upcoming trial. The results of the mock trial 
were nothing short of dramatic. What we thought was a relatively thin 
case against Cherry turned out to be surprisingly compelling.
    Trial lawyers have to be sensitive to the jurors and the jury 
selection process in order to be successful. What is hard to admit, 
however, is that we don't know everything about everyone on a jury 
panel. The use of consultants, with a fresh, but experienced, 
perspective can make all the difference.
 ``capturing the jury's focus: setting out a theme in black and white''
    The themes of both trials took jurors on a journey back through 
history. It was a history that some of the jurors had lived, while 
others had only learned about it in school. Using black and white video 
footage and photographs, jurors were walked through the black and white 
world of 1960's Birmingham. The black and white images were a constant, 
albeit subtle, reminder throughout the trial of a once segregated 
Birmingham.
    The journey started in 1957, when Rev. Fred Shuttlesworth attempted 
to enroll his children in the all-white Phillips High School. He was 
met by an angry mob of white men, about ten of whom proceeded to attack 
Rev. Shuttlesworth and his wife in front of the school. The scene was 
captured on 8mm file and is standard footage in most civil rights 
documentaries. Seeing that such attempt to integrate the Birmingham 
City Schools would not work, a lawsuit, based on the 1954 Brown v. 
Board of Education decision, was filed in federal court. That case and 
its ultimate outcome would set the stage for many events to follow. But 
the footage of the mob beating Rev. Shuttlesworth also had additional 
importance in the Cherry case.
    To the courtroom spectator, Bobby Frank Cherry appeared to be 
anybody's grandfather: a 71 year old man more comfortable wearing 
overalls in the garden than wearing a suit sitting in a courtroom. But 
witnesses identified Cherry in the thick of the mob attacking Rev. 
Shuttlesworth, even using what appeared to be brass knuckles. Thus, 
from opening arguments jurors were shown what Bobby Frank Cherry was 
like as a 33 year old man in 1963: a member of the KKK, who resorted to 
violence to stop integration.
    Jurors also learned, through photographs and testimony, that 1963 
and the months leading up to the bombing were pivotal times for the 
City of Birmingham. That spring the famous ``children's marches'' were 
organized by Dr. King and others to integrate the public facilities of 
downtown Birmingham. The Sixteenth Street Baptist Church had already 
become a focal point for the civil rights movement in Birmingham, but 
now it was even more prominent with the marchers gathering in the 
sanctuary before facing Bull Connor's forces just outside. When a 
settlement was reached to begin the process of integrating Birmingham, 
Cherry and Blanton saw the first real cracks in their segregated way of 
life.
    As the civil rights movement gathered steam with the August, 1963 
``March on Washington,'' the case to integrate Birmingham Schools was 
coming to a close. Six years after the case began, the final orders 
were issued that forced Birmingham to accept African-American students. 
On September 10, 1963, just five days before the bombing, two young men 
enrolled at Graymont Elementary School and for the first time, 
Birmingham had an integrated school system. Blanton and Cherry saw 
their segregated way of life erode even further. It was, I believe, no 
coincidence that five days after the schools were finally integrated a 
bomb was placed under the steps of a prominent player in the civil 
rights movement, the 16th Street Baptist Church, on a Sunday morning 
where other prominent players in the movement, the youth, were 
preparing for the first of the planned monthly youth worship services.
                  the case against blanton and cherry
    The evidence introduced in the Blanton trial and the Cherry trial 
obviously had many similarities. Testimony from the victims' families 
and from those on the scene was essentially the same in both trials, 
but the evidence that pointed to the guilt of each defendant was 
considerably different.
    The Blanton jury heard evidence of the defendant's hatred for 
blacks and his membership in the Klan. Tapes were played of 
conversations between Blanton and an informant in which Blanton joked 
about ``bombing my next church.'' There was testimony by James Lay who 
identified Blanton and Chambliss has the men he saw standing on the 
side of the church at one o'clock in the morning two weeks prior to the 
bombing. The man identified as Blanton was holding some type of satchel 
and standing next to the steps where the bomb was eventually placed. 
Agents who had interviewed Blanton following the bombing testified 
about Blanton's inconsistent statements concerning his whereabouts the 
weekend of the bombing. Finally, the jury heard Blanton himself, on 
tape, admitting to being part of meetings where the bomb was planned 
and made.
    With Cherry, the witnesses who came forward all gave compelling 
testimony about Cherry's admissions to them. In addition, an ex-wife 
who had also called the FBI when she read about the case in Montana, 
testified about Cherry's admissions to her. Like Blanton, Cherry also 
gave many conflicting statements about his whereabouts the night before 
the bombing. His latest version of where he had been on Saturday night 
was that he was home early because his wife was dying with cancer and 
he always watched live studio wrestling at 10 p.m. We introduced 
medical records proving that Mrs. Cherry was not diagnosed with cancer 
until 1965, two years after the bombing, and that there was no Saturday 
night wrestling on TV at the time. Most significantly, Cherry admitted 
to being at the Modern Sign Shop with Blanton and Chambliss on the 
Friday night before the bombing, the same Friday night and location 
where Blanton said ``we'' had planned and made the bomb
    In both trials, we concluded the prosecution's case on an emotional 
high note. People sometimes forget that there were actually five little 
girls in the ladies lounge that morning. Our last witness was Sarah 
Collins Rudolph , the sister of Addie Mae. She testified about walking 
to church that morning with her sisters and going into the basement and 
the ladies lounge with Addie. As she went to wash her hands she turned 
around and saw Addie tying the sash of Denise's new dress. The 
explosion then trapped her beneath rubble, unable to move and unable to 
see because of injuries to her eyes. I asked her what happened after 
the explosion? ``I called out for my sister.'' What did you say? ``I 
called out Addie, Addie, Addie,'' her words echoing in a silent 
courtroom much as they would have 38 years earlier. ``Did she answer 
you back?'' I asked. ``No.''she said softly. Did you ever see her alive 
again? ``No'' she said, wiping back the tears. With that, the State of 
Alabama rested.
    It took the jury only 2 and one-half hours to find Tommy Blanton 
guilty on four counts of first degree murder. It took the Cherry jury 
about six hours to reach the same result. Both were immediately 
sentenced to life in prison and were whisked out of the courtroom by 
Sheriff's deputies.
                           ``the aftermath''
    It is impossible to express the emotion felt by the prosecution 
team and the satisfaction gained from being a part of these cases. I 
have said many times that I wish every lawyer, at least once in their 
career, could work on a case that meant so much to so many. There are 
many things that can come from such a case, but only two I would like 
to highlight here.
    First, I am always asked about threats or hate mail that we 
received throughout the course of this investigation. I guess it is 
assumed that even today the hatred of the past remains with us. I am 
sure it does in some quarters. But the fact is that we received 
absolutely nothing in the way of the hate mail or threats. None. That 
is not to say there was not some criticism of the prosecution, but that 
is always expected in any high profile case. It seems to me though, 
that the complete lack of anonymous threats or hate mail speaks volumes 
about where we as a state have come since 1963.
    Finally, as lawyers we have to remember that we are a service 
profession. Our job is to seek justice for our clients no matter what 
the obstacles or delay. Justice delayed does not have to mean justice 
denied. The odds are that you will never see a case that has such an 
impact on so many, but every case does have an impact on the client we 
represent, whether it is injured child, the defrauded consumer or the 
family of a victim. Each of these clients deserve as much attention and 
effort as Carol, Denise, Addie and Cynthia.

    Mr. Nadler. I thank the witness. Mr. Cohen.

 TESTIMONY OF J. RICHARD COHEN, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, SOUTHERN POVERTY LAW CENTER, MONTGOMERY, AL

    Mr. Cohen. Thank you. Thank you Mr. Chairman, Chairman 
Conyers, Chairman Scott, thank you very much for the 
opportunity to appear before you today. And Congressman Davis, 
thank you for those very, very kind remarks. In 1989, we built 
the Civil Rights Memorial to honor the martyrs of the Civil 
Rights movement. Since that time, Congressman Lewis has led an 
annual pilgrimage to the Memorial on the occasion on the 
anniversary of Bloody Sunday. Many Members of this body have 
joined him, including Congressman Jackson Lee and Congressman 
Ellison. When we built the Memorial we had just finished 
litigating a case against the United Klans of America, a Klan 
group that blew up the 16th Street Baptist Church killing Addie 
Mae Collins, Denise McNair, Carole Robertson and Cynthia 
Wesley. And also a group that had murdered Viola Liuzzo, a 
Civil Rights activist from Detroit who was involved in the 
Selma-to-Montgomery voting rights march. At the time the 
Memorial was dedicated, most of the cases chronicled on it had 
not been brought to justice. Today, many of the cases still cry 
out for justice. For this reason the Memorial serves as a 
reminder, not just of the sacrifices of the Civil Rights era, 
but of its injustices.
    If we as a Nation are going to address these injustices 
before they become permanent scars on our history, it is 
essential for Congress to pass the bill before it now. In doing 
the research for the Civil Rights Memorial we focused on the 
period 1954 to 1968, and looked for cases where victims had 
been murdered because they were active in the Civil Rights 
movement, they had been killed by organized hate groups in an 
effort to intimidate African-Americans and other Civil Rights 
activists or those whose deaths like Emmett Till, helped to 
galvanize the movement.
    We named 40 persons who fit this criteria, including Medgar 
Evers and Michael Schwerner. I am humbled to be on this panel 
today with their widows. But we know that there were many, many 
other victims besides those chronicled on the Memorial. During 
our research, we discovered the names of approximately 75 other 
people who died under circumstances suggesting that they too 
were victims of racial violence during the Civil Rights era. 
And as thorough as we tried to be in our research, I have no 
doubt that we missed many of the cases. Many of the killings we 
researched were never fully investigated by authorities. Our 
files, for example, include the case of Thomas Brewer, a 
prominent Black physician and NAACP activist in Georgia who was 
killed by a White department store owner in 1956. No one was 
indicted for the crime. It was an era when African-Americans 
and their allies were beaten, bombed and shot with impunity.
    Herbert Lee of Liberty, Mississippi, for example, was shot 
in the head by a White State legislator in broad daylight in 
Liberty, Mississippi, in 1961. Nothing was ever done about it. 
Although we never anticipated it really, the dedication of the 
Memorial sparked renewed interest in the Civil Rights era 
slayings. And since that time, a number of people have been 
brought to justice in connection with the murders from that 
era. My friend, Doug Jones, is responsible for a number of 
those convictions. But I think we all know that much more 
remains to be done. And in many of the cases on the Memorial, 
no one was ever brought to justice.
    As I indicated before, there were many, many victims of 
racial violence during the Civil Rights era whose names are not 
on the Memorial. We sent our list of 75 suspicious cases to the 
Justice Department. And as I understand it, now they have a 
list of over 100 cases. They have indicated that many of these 
cases had never been investigated before. We applaud the FBI 
and the Justice Department for their interest in resolving 
these cases and we wish that these cases had always been a high 
priority. Passage of the Emmett Till Act will keep them on the 
front burner.
    In closing, I would like to note that I had a chance to 
meet Mamie Till, Emmett Till's mother, before she died. She 
spoke at the dedication of the Civil Rights Memorial and 
visited us a number of times. She was a very eloquent woman and 
a woman of great courage who forced the country to face the 
ugly reality of its racial violence in the hopes that we would 
do something about it. Passing an Act named for her son would 
be a fitting tribute to her courage and a measure that is long 
overdue. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cohen follows:]
                 Prepared Statement of J. Richard Cohen
    Thank you, Messrs. Chairmen and Members of the Subcommittees, for 
the opportunity to be here today to testify in support of the Emmett 
Till Unsolved Civil Rights Crime Act (HR 923).
    My name is Richard Cohen. I'm the president of the Southern Poverty 
Law Center (SPLC), a civil rights organization founded in 1971 and 
located in Montgomery, Alabama. In 1989, we built the Civil Rights 
Memorial in Montgomery, the birthplace of the modern civil rights 
movement, to honor the lives and memories of those who were slain 
during the movement from 1954 to 1968. Inscribed on the Memorial are 
the names of 40 martyrs, including Emmett Till; however, we know from 
our research that many more people lost their lives to racial violence 
during that era. At the time the Memorial was dedicated, the killers in 
most of the cases chronicled on the Memorial had not been prosecuted or 
convicted, and today, there are many cases that still cry out for 
justice. For these reasons, the Memorial serves as a reminder, not only 
of the sacrifices made during the civil rights era, but also of its 
terrible injustices.
    The dedication of the Memorial sparked renewed interest in the 
civil rights era cases from a number of courageous prosecutors. But 
there has never been the kind of institutionalized effort that is 
needed to address the historic injustices that occurred during that 
era--an era when the criminal justice system in much of our country was 
corrupted by racial bigotry and the lives of the African American 
citizens of our democracy were not protected. If we are to address the 
injustices of the civil rights era before they become permanent scars 
on our nation's history, the passage of legislation mandating a 
sustained, well-coordinated and well-funded effort to investigate and 
prosecute racially motivated slayings from the civil rights era is 
essential.
    We decided to build the Civil Rights Memorial after litigating a 
case against the United Klans of America, the group responsible for 
some of the most horrific violence during the civil rights era. In 
1981, members of the United Klans, angry over a jury's failure to 
return a verdict against a black defendant accused of killing a white 
police officer, decided to lynch a black man to show that the Klan was 
still alive and well in Alabama. Their victim was Michael Donald, a 
college student who had the misfortune of being on a public street 
while Klansmen drove by looking for potential victims. They abducted 
Michael, beat him mercilessly, cut his throat, and hung him from a tree 
for the world to see their ``handiwork.'' The local leader of the Klan 
described the scene as ``a pretty sight.''
    Ignoring the fact that Michael Donald had led an exemplary life, 
local law enforcement officials initially attributed the killing to the 
illegal drug trade. But spurred on by local activists and the 
persistence of Assistant U.S. Attorney Thomas Figures, federal 
prosecutors eventually broke the case. One Klansman pled guilty to the 
killing in federal court and was sentenced to a long prison term. 
Another Klansman was found guilty of capital murder in state court and 
was later executed.
    We followed the case closely and were convinced that other parties 
should be held responsible. In 1984, we filed a civil action on behalf 
of Michael's mother, Beulah Mae Donald, against the United Klans itself 
as well as a number of additional Klan members. At the trial in 1987, 
we proved that the plan to lynch a random black victim was hatched at a 
meeting of the United Klans. We also established that United Klans had 
a long history of carrying out its goals by violent means. We presented 
evidence: (1) that its members had blown up Birmingham's Sixteenth 
Street Baptist Church in 1963, killing four young black girls--Addie 
Mae Collins, Denise McNair, Carole Robertson, and Cynthia Wesley; (2) 
that the group had murdered civil rights activist Viola Liuzzo during 
the Selma-to-Montgomery march in 1965; and, (3) that its members had 
beaten the Freedom Riders in Montgomery in 1961. (Congressman John 
Lewis was among those beaten at the bus terminal.) An all-white jury in 
Mobile returned a verdict for $7 million in our favor against all the 
defendants, including the United Klans. As a result of the verdict, the 
United Klans disbanded and was forced to deed its headquarters to Mrs. 
Donald.
    After the Donald verdict, my colleague Morris Dees was invited to 
speak to an NAACP convention in Mobile. At the close of his remarks, 
Morris said that he hoped that Michael Donald's name would be 
remembered along with the names of Dr. Martin Luther King Jr., Medgar 
Evers, Emmett Till and the other martyrs of the civil rights movement. 
After the speech, young people came up to Morris and said that they 
knew of Dr. King, of course, but weren't familiar with the names of the 
other civil rights martyrs that he had mentioned. On his way home that 
night, Morris decided that we should build a memorial to the martyrs of 
the movement so that their sacrifices would never be forgotten.
    In preparing to build the Civil Rights Memorial, we researched 
deaths between 1954, the year of Brown v. Board of Education, and April 
4, 1968, the date of Dr. King's assassination. We looked for victims 
who fit at least one of three criteria: (1) They were murdered because 
they were active in the civil rights movement; (2) They were killed by 
organized hate groups as acts of terror aimed at intimidating blacks 
and civil rights activists; or, (3) Their deaths, like the death of 
Emmett Till, helped to galvanize the movement by demonstrating the 
brutality faced by African Americans in the South.
    In some sense, the dates we chose were arbitrary. The civil rights 
movement clearly began before the Supreme Court's landmark school 
desegregation decision in 1954, and it did not end with Dr. King's 
death in 1968. We knew that by choosing specific dates, we would leave 
out certain victims, such as Harry Moore, an NAACP official who died 
along with his wife, Harriette, in the Christmas night bombing of their 
home in Mims, Florida, in 1951. But we felt like we should choose a 
timeframe bounded by well-known historic events.
    To identify victims fitting the criteria we selected, we solicited 
information from civil rights activists, authors, and journalists. We 
combed through newspaper archives and books on the era. We reviewed 
files and other materials at the Southern Regional Council in Atlanta; 
Tuskegee Institute in Alabama; state archives in Mississippi and 
Alabama; the U.S. Library of Congress; the Birmingham Public Library's 
Southern History collection; the Center for the Study of Southern 
Culture at the University of Mississippi; and the Martin Luther King 
Jr. Center for Nonviolent Social Change in Atlanta. The Library of 
Congress research included searches through the papers of the Student 
Nonviolent Coordinating Committee, the Congress of Racial Equality and 
the NAACP. We also filed Freedom of Information Act requests to obtain 
FBI files on individual deaths. The archives of The New York Times were 
particularly useful. A day-by-day search of its pages on microfilm 
turned up many deaths that had not been covered by local newspapers. A 
wealth of information also was found at the Southern Regional Council. 
This research became the basis for our book ``Free at Last: A History 
of the Civil Rights Movement and Those Who Died in the Struggle.'' I'm 
providing copies to the Members of the Subcommittees.
    Our research yielded the names of 40 people who fit the criteria we 
had established. They ranged in age from 11 to 66. Seven were white, 
and 33 were black. They came from all walks of life--students, farmers, 
ministers, truck drivers, a homemaker and a Nobel laureate. These are 
the names inscribed on the black granite of the Memorial, which was 
designed by Maya Lin.
    But there were many, many other victims besides the 40 who are 
remembered on the Memorial. While we were conducting our research, we 
discovered the names of approximately 75 other people who died 
violently between 1952 and 1968 under circumstances suggesting that 
they were victims of racial violence. We did not add their names to the 
Memorial because their deaths did not fit the criteria we had 
established for inclusion on the Memorial or because we simply did not 
know enough about their deaths. Many of these killings were never fully 
investigated in the first place, and in some cases, law enforcement 
officials were involved in the killings or subsequent cover-ups. And 
precisely because the killings of African Americans were often covered 
up or never seriously investigated, we have no doubt that many slayings 
were not recorded in the sources we checked.
    The dedication of the Memorial in 1989 was a memorable event. 
Family members representing 39 of the 40 martyrs attended and 
celebrated the lives and contributions of their loved ones. Emmett 
Till's mother, Mamie Till-Mobley, spoke eloquently at the dedication of 
her loss, her hopes, and the joy she felt over the fact that many of 
the forgotten martyrs of the movement were finally getting the 
recognition that they deserved. But the dedication was tinged with 
sadness, not simply because those remembered on the Memorial had lost 
their lives, but because most of the family members in attendance still 
awaited justice for the killing of their loved one.
    The reason justice had not been served was the callous 
indifference, and often the criminal collusion, of many white law 
enforcement officials in the segregated South. There simply was no 
justice for blacks during the civil rights era. The whole criminal 
justice system--from the police, to the prosecutors, to the juries, and 
to the judges--was perverted by racial bigotry. Blacks were routinely 
beaten, bombed and shot with impunity. Sometimes, the killers picked 
their victims on a whim. Sometimes, they targeted them for their 
activism. In some cases, prominent white citizens were involved. 
Herbert Lee of Liberty, Mississippi, for example, was shot in the head 
by a state legislator in broad daylight in 1961--and nothing was done.
    The victims also included Mack Charles Parker of Poplarville, 
Mississippi, an Army veteran who was accused of raping a white woman. 
In 1959, three days before his trial, a lynch mob dragged him from his 
jail cell, beat him, shot him in the heart, and threw his body in the 
Pearl River. The mob of eight white men included the jailer, a former 
deputy sheriff, and a preacher. Though most people in town knew who did 
it, no one was ever arrested. Finally, persistent FBI agents developed 
hard evidence against members of the lynch mob. The county prosecutor, 
who had earlier vowed to not prosecute the crime, refused to present it 
to a grand jury. U.S. Attorney General William Rogers called the action 
a ``travesty of justice'' and ordered the Justice Department to build a 
federal civil rights case. But a federal grand jury refused to indict, 
and the mob went free. No one was ever punished.
    In many cases, such as the murder of Emmett Till, suspects were 
brought to trial only to be set free by sympathetic white juries.
    There have been sporadic efforts over the years to solve some of 
the crimes that were ignored at the time by law enforcement officials. 
In some cases, prosecutors have performed heroically in bringing 
killers to justice. But the effort has depended, in large part, on the 
priorities and judgments of individual prosecutors.
    The most prominent figure to pursue prosecutions of civil rights 
era slayings between 1968 and the dedication of the Memorial was 
Alabama Attorney General Bill Baxley. Shortly after he took office in 
1971, Mr. Baxley began investigating the Sixteenth Street Baptist 
Church bombing--one of the most heinous crimes of the era. He doggedly 
pursued the case, even though the FBI refused to share its voluminous 
evidence with him. The FBI had investigated the crime extensively at 
the time it occurred in 1963 and had focused its attention on four 
local Klansmen with long histories of violence. Despite possessing 
secret tape recordings that implicated the suspects, FBI Director J. 
Edgar Hoover had closed the case in 1968 without bringing charges.
    Mr. Baxley wrote in The New York Times on May 3, 2001, that what he 
initially attributed to ``innocent bureaucratic shuffling'' was later 
revealed to be a ``charade.'' The FBI finally released evidence to him, 
but only after a reporter from the Los Angeles Times, with whom Mr. 
Baxley had shared his frustration, threatened to expose the FBI's 
obstruction. The combination of the evidence Mr. Baxley developed on 
his own and the FBI's evidence was enough to convict Robert ``Dynamite 
Bob'' Chambliss of first-degree murder in 1977. But Mr. Baxley still 
lacked enough evidence to bring charges against two other suspects that 
the FBI had originally identified--Thomas Blanton and Bobby Cherry.
    The case remained closed until U.S. Attorney Doug Jones reopened it 
in the mid-1990s. Mr. Jones discovered that there was significant 
evidence that the FBI had not shared with Mr. Baxley during the 
Chambliss prosecution. This evidence included recordings made by a 
listening device placed near Blanton's kitchen sink as well as tapes 
secretly recorded by Klan informant Mitchell Burns during drinking 
binges with Cherry and Blanton. Armed with this evidence, Mr. Jones 
convicted Blanton in 2001 and Cherry in 2002.
    In the mid-1970s, Mr. Baxley also tried, unsuccessfully, to 
prosecute three Klansmen for the 1957 murder of Willie Edwards Jr., a 
25-year-old black truck driver who was forced at gunpoint to jump off a 
bridge into the Alabama River in Montgomery. The indictments of three 
Klansmen in that case were quashed twice by an Alabama judge who ruled 
that no cause of death had been specified.
    Notwithstanding Mr. Baxley's success, prior to the dedication of 
the Memorial, there was little interest in reopening other cases. There 
was an assumption that most of the murder cases described on it were 
``cold'' and that nothing could be done. In many cases, the assumption 
had become a self-fulfilling prophecy. There also was a lack of 
political will to see that justice was done.
    Fortunately, the dedication of the Memorial and the publication of 
our book ``Free at Last: A History of the Civil Rights Movement and 
Those Who Died in the Struggle,'' which was released in conjunction 
with the dedication, sparked renewed interest in these cases. 
Investigative reporter Jerry Mitchell of The Clarion-Ledger in Jackson, 
Mississippi, whose reporting is often credited with spurring 
prosecutors to reopen cases from the era, has said the book became a 
``road map'' for his investigations, which began with an examination of 
the 1963 assassination of NAACP field secretary Medgar Evers. During 
the October 2005 dedication of the new visitors center for the Civil 
Rights Memorial, Mr. Mitchell said, ``The Memorial stands as a reminder 
their killers walked free, even though everyone knew they were guilty. 
. . . After its dedication in 1989, it transformed into an instrument 
of justice.''
    Since that time, thanks in part to the hard work of dedicated 
journalists like Jerry Mitchell, authorities in two Southern states 
(Alabama and Mississippi) have convicted 10 people in connection with 
11 murders from the civil rights era. Six of those convictions were for 
10 deaths chronicled on the Memorial. (There also have been convictions 
in connection with racial slayings from the 1960s in Indiana and 
Pennsylvania.) In addition, James Ford Seale is currently on trial in 
Mississippi for the slaying of two of the martyrs on the Memorial--
Charles Eddie Moore and Henry Hezekiah Dee. And former Alabama state 
trooper James Bonard Fowler has recently been indicted and is awaiting 
trial in the death of another Memorial martyr--Jimmie Lee Jackson, the 
Alabama college student whose death sparked the Selma-to-Montgomery 
march led by Congressman Lewis and others.
    But the hard truth is that much more remains to be done.
    In 13 of the 40 deaths noted on the Civil Rights Memorial, no one 
has ever been brought to trial. In 10 of the 40 deaths, defendants were 
either acquitted by all-white juries or served only token prison 
sentences. And, of course, there were many more killings than those 
remembered on the Memorial. Our files include the case of Thomas 
Brewer, a prominent physician killed in Georgia in 1956. He was a local 
NAACP activist who was shot seven times in a department store by a 
white politician. No indictment was ever brought. There was Sam O'Quinn 
from Centreville, Mississippi, who was shot in the back shortly after 
joining the NAACP in 1959. He had been criticized often by whites in 
his hometown as being ``uppity.'' There was Sylvester Maxwell, whose 
body was found castrated and mutilated in Canton, Mississippi, in 1963. 
NAACP field secretary Medgar Evers saw it as a probable lynching; no 
arrests were made. There was 15-year-old Larry Bolden, shot in the 
chest by a white Chattanooga policeman responding to a call about 
teenagers making too much noise in 1958.
    In February of this year, after reading a story in The New York 
Times about the FBI's ``cold case'' initiative, launched in 2006, we 
forwarded a copy of our book ``Free at Last'' (the story of the 40 
martyrs) and our files on the 75 other cases to the FBI. The article 
said the FBI had compiled a list of 51 victims in 39 cases, most of 
which had never been investigated by the FBI; we don't know the extent 
to which our list and theirs overlap. After we forwarded our list, I 
was asked to appear at a press conference with Attorney General Alberto 
Gonzalez and FBI Director Robert Mueller. I was honored to be included. 
The press conference was held on Feb. 27--ironically, the same day that 
a grand jury in Mississippi declined to issue any new indictments in 
the Till case.
    We applaud the Justice Department's and the FBI's interest in 
resolving the civil rights-era cases. We wish that this had always been 
a high priority. To ensure that it continues to be so, Congress should 
mandate that these efforts be coordinated and focused, while providing 
adequate funding and establishing clear reporting requirements. The 
Emmett Till Unsolved Civil Rights Crime Act would accomplish this goal.
    It is appropriate, of course, to name the act for Emmett Till. His 
slaying in 1955 and his mother's decision to have an open casket at his 
funeral stirred the nation's conscience and galvanized thousands of 
committed Americans to join the march for equality. Unfortunately, many 
others were killed during that march, and many of the killers, like 
those of Emmett himself, were never successfully prosecuted.
    We should not underestimate the difficulties that the passage of 
time has created in pursuing the civil rights era cases. But we should 
not let those difficulties--the product of our country's neglect and 
failure--be an excuse for not doing what we can now. Some of the cases 
that are today considered ``cold'' may turn out to have some burning 
embers, and we should leave no stone unturned in our efforts to resolve 
them.
    During her speech at the dedication of the Civil Rights Memorial, 
Emmett's mother said, ``When my eyes were a fountain of tears, the 
realization came that Emmett's death was not a personal experience for 
me to hug to myself and weep, but it was a worldwide awakening that 
would change the course of history.'' The fact that no one was ever 
punished for Emmett's death would not have surprised or deterred her. 
Instead, it would have only strengthened her commitment to justice for 
the other victims of the racial terrorism that plagued our country for 
so long.
    It should strengthen our resolve as well.

    Mr. Nadler. I thank you. Ms. Bender.

             TESTIMONY OF RITA L. BENDER, ESQUIRE, 
                 SKELLENGER BENDER, SEATTLE, WA

    Ms. Bender. I would like to thank the Members of the 
Committee and the Chairs, and of course, Congressman Conyers, 
who was very helpful, I must tell you all who are too young to 
know it, in the years, in those terrible and glorious years of 
the Civil Rights movement. I am appearing before you today to 
support the passage by the Congress of H.R. 923. This important 
legislation provides an opportunity to confront our common 
legacy of racism, a confrontation long overdue. Since the end 
of reconstruction millions of African-Americans have been 
denied the right to vote, access to adequate schooling, to 
economic opportunity and to the full participation and the 
benefits of United States citizenship. This denial was 
systematically enforced by a complex of laws and by custom and 
practice, all of which perpetuated political and economic 
disenfranchisement.
    Violence was employed as a tool to maintain the status quo. 
In the State of Mississippi alone there were at least 581 
lynchings. In January 1964, my husband, Michael Schwerner, and 
I went to Meridian Mississippi, just two of many Civil Rights 
workers who were committed to assist local people in their 
efforts to break the cruel tyranny of the Jim Crow system. We 
came of age at a time of great hope in America with the 
conviction that our country could change, that with the effort 
of many people, we would see the emergence of the society which 
had been promised in which the badges and indicia of slavery 
would forever be relegated to the brutal past.
    On June 21, 1964 while visiting an African-American church 
in Philadelphia, Mississippi, whose members had been severely 
beaten because of their commitment to voter registration 
efforts, Mickey Schwerner, James Chaney and Andrew Goodman were 
murdered. The murders were a group of 18 men who included the 
deputy sheriff, local police and others, all members of the Ku 
Klux Klan. Two members of the State patrol abandoned the 
conspiracy at the last moment but did nothing to prevent the 
killings that they knew were to occur that evening. The State 
of Mississippi did not bring murder charges until 2005. By 
then, many of the conspirators were dead.
    Of the eight surviving participants, only one was indicted. 
Edgar Ray Killen was found guilty of three counts of 
manslaughter and is now serving a 60-year sentence. But 
throughout the south, there were hundreds of other murders, 
some of people who played active roles if the Civil Rights 
movement. There were also many victims who were simply 
available, killed to send the message that Black people had no 
worth and that those who opposed the stifling status quo could 
be eliminated without consequence. For decades the crimes of 
the Civil Rights era went unacknowledged. People lived their 
lives in the towns and cities where the crimes occurred often 
engaging in the small exchanges of life with the perpetrators. 
For some the continued interaction with persons who they knew 
had committed heinous acts must have been a constant source of 
intimidation even if nothing was said directly. For others 
knowledge of the crime and the failure of communal action to 
impose consequences on the actors was the denial of the 
seriousness of the event, a diminishment of civil society.
    The Civil Rights prosecutions, albeit very late, are an 
acknowledgement by our Nation that crimes were committed not 
just against the victims, but crimes that tore the very fabric 
of our social order. The belated acknowledgement by the State 
represents an important effort to confront the reality of the 
communal dysfunction. With such confrontation comes the 
possibility of healing. So criminal trials serve both to impose 
punishment upon the perpetrators for their individual 
wrongdoing, but also to acknowledge societal responsibility for 
the racism which permitted and even encouraged the violence to 
flourish.
    The testimony which is placed before the public, both those 
in the local community who sit through the trial, and those who 
may come to know about it through the media, serves to confront 
the questions of how such violence can have occurred. Indeed, 
in the Killen trial, some of the testimony was shocking in its 
revelation. One witness was a former mayor of Philadelphia who 
served in the 1990's. He was called as a character witness for 
Preacher Killen, who he assured the jury was a fine man and a 
good Christian.
    Asked by the prosecution if he would maintain his support 
for Killen if he knew Killen was a member of the Klan, a fact 
which the defense had already acknowledged, the mayor responded 
that he would, since he knew that the Klan had done good 
things, such as deliver food baskets to widows.
    Many people in the courtroom registered shock at this 
testimony. It was important for the community and the Nation to 
hear. It was an opportunity for confronting truth. The truth 
being the extent to which a significant portion of the White 
society had continued to deny reality and to cloak itself in a 
fantasy in which the wrongdoers were the Civil Rights workers 
who had disrupted the expectations and traditions of Jim Crow 
and not the society which had spawned the violence. 
Acknowledging these crimes and imposing appropriate punishment 
is an important societal obligation. Permitting the opportunity 
for communal acceptance of responsibility is a necessary part 
of restoration of civil society. If we allow the opportunity to 
pass without attempting to bring these cases to trial as 
possible, we lose forever the chance to understand who we are 
as a Nation.
    Let us allow these trials to encourage the public debate 
about the overreaching societal and governmental conduct that 
both enabled these crimes and which continues to cause racial 
inequality. The goal of trials should not be that once over 
there is no further discussion to be had. The opportunity for 
exploring how we move forward to bridge the racial divide then 
would be lost. Understanding our history is the necessary step 
toward ensuring that we move ahead as a society which is 
committed to healing our wounds and achieving reconciliation. 
The trials provide an opening for the process of restorative 
justice. They are important to the families who were so cruelly 
hurt by the crimes, but equally important for our Nation. Thank 
you.
    [The prepared statement of Ms. Bender follows:]
                  Prepared Statement of Rita L. Bender
    I am appearing before you today to support the passage by the 
Congress of HB.923. This important legislation provides an opportunity 
to confront our common legacy of racism, a confrontation long over due.
    Since the end of Reconstruction, millions of African Americans have 
been denied the right to vote, access to adequate schooling, to 
economic opportunity, and to the full participation in the benefits of 
United States citizenship. This denial was systematically enforced by a 
complex of laws, and by custom and practice, all of which perpetuated 
political and economic disenfranchisement.
    Violence was employed as a tool to maintain the status quo. In the 
State of Mississippi alone, there were at least 581 lynchings.
    In January1964, my husband Michael Schwerner and I went to 
Meridian, Mississippi, just two of many civil rights workers who 
committed to assist local people in their efforts to break the cruel 
tyranny of the Jim Crow system. We came of age at a time of great hope 
in America-with the conviction that our country could change, that with 
the effort of many people, we would see the emergence of the society 
which had been promised, in which the badges and indicia of slavery 
would forever be relegated to the brutal past.
    On June 21, 1964, while visiting an African American Church in 
Philadelphia, Mississippi, whose members had been severely beaten 
because of the their commitment to voter registration efforts, Mickey 
Schwerner, James Chaney, and Andrew Goodman were murdered. The 
murderers were a group of 18 men who included the deputy sheriff, local 
police, and others-all members of the Ku Klux Klan. Two members of the 
State Patrol abandoned the conspiracy at the last moment, but did 
nothing to prevent the killings they knew were to occur that evening,
    The State of Mississippi did not bring murder charges until 2005. 
By then, many of the conspirators were dead. Of the eight surviving 
participants, only one was indicted. Edgar Ray Killen was found guilty 
of three counts of manslaughter, and is now serving a 60 year sentence.
    But throughout the South there were hundreds of other murders, some 
of people who played active roles in the Civil Rights Movement. There 
were also many victims who were simply available, killed to send the 
message that Black people had no worth, that those who opposed the 
stifling status quo could be eliminated without consequence.
    For decades, the crimes of the civil rights era went 
unacknowledged. People lived out their lives in the towns and cities 
where the crimes occurred, often engaging in the small exchanges of 
life with the perpetrators. For some, that continual interaction with 
persons who they knew had committed heinous acts must have been a 
constant source of intimidation, even if nothing was said directly. For 
others, knowledge of the crime and the failure of communal action to 
impose consequences on the actors was the denial of the seriousness of 
the event, a diminishment of civil society.
    A criminal trial is a public event through which a community 
attempts to confront a wrong, by determining guilt, by seeking to 
acknowledge responsibility, and by imposing a penalty commensurate with 
the wrong doing. But can such prosecutions be meaningful so long after 
the crimes were committed?
    These civil rights prosecutions are an acknowledgement by our 
nation that crimes were committed, not just against the victims, but 
crimes that tore the very fabric of our social order. The belated 
acknowledgement by the state represents an important effort to confront 
the reality of the communal dysfunction. With such confrontation comes 
the possibility of healing.
    So, criminal trials serve both to impose punishment upon the 
perpetrators for their individual wrongdoing, but also to acknowledge 
societal responsibility for the racism which permitted, and even 
encouraged the violence to flourish.
    The testimony which is placed before the public, both those in the 
local community who sit through the trial, and those who may come to 
know about it through the media, serves to confront the questions of 
how such violence can have occurred. Indeed, in the Killen trial, some 
of the testimony was shocking in its revelation.
    One witness was a former mayor of Philadelphia, who served in the 
1990's. He was called as a character witness for Preacher Killen, who 
he assured the jury was a fine man and a good Christian. Asked by the 
prosecution if he would maintain his support for Killen if he knew 
Killen was a member of the Klan, a fact which the defense had 
acknowledged, the mayor responded that he would, since he knew that the 
Klan had done good things, such as deliver food baskets to widows.
    Many people in the courtroom registered shock at this testimony. It 
was important for the community to hear. It was an opportunity for 
confronting truth-the truth being the extent to which a significant 
portion of the white society had continued to deny reality, and to 
cloak itself in a fantasy in which the wrong doers were the civil 
rights workers who had disrupted the expectations and traditions of Jim 
Crow, and not the society which had spawned the violence.
    These trials are publicized, receiving media attention around the 
country and the world. However, my experience was that some of the 
significant events in the Killen trial were rather private. The trial 
provided a catalyst for people to acknowledge the fear, anger, and pain 
they had carried for so long.
    I met an African American woman who waited on line each day to get 
into the courtroom. She had grown up in a neighboring county. She told 
me that as a child her parents had warned her never to go to 
Philadelphia, it was too dangerous. She had become a lawyer; since the 
trial courts are located in Philadelphia, she often came to town. She 
always found herself thinking of her parents' warnings. One morning 
during the trial, as she had arrived early, she went across the street 
to the coffee shop. She was about to enter when two elderly African 
American women came down the street. One of them took her by the arm 
and gently said, ``You don't want to go in there dear. The restaurants 
are just for white folks.'' Of course, she went in and ordered her 
coffee, but she told me that the experience reminded her that many 
people have yet to get over their sense that they constantly live in 
danger. For this woman, sitting through the trial and hearing the 
verdict was her opportunity to bear witness in the face of her 
community's fear.
    Still, people who were unwilling to speak out over the years seemed 
to be struggling yet to understand what had happened in their 
community, not just on the night of the murders, but in the times 
since. I was struck with the depth of the wounds which had been imposed 
on this society, many of them certainly self-inflicted. The trial 
apparently permitted some to face truths about individual and 
collective culpability for the silence and the acquiescence which had 
allowed such crimes to occur repeatedly over so many years.
    I met a State Patrol Officer, one of many guarding the courthouse 
during the trial, who asked to speak with me in private. He was a white 
man in his late 50's. With tears in his eyes, he told me that he had 
been in law enforcement since he was very young. He spoke of the bad 
men he had served with, who were now gone from the ranks. He said that 
the younger officers could not believe him when he told of how bad they 
had been. Why did he want to tell me this? Why was he crying? Perhaps 
because he had lived too long with the burden of knowing that evil had 
gone unpunished. I do think that he was attempting to acknowledge his 
part in collective responsibility. His recognition was his small, 
personal step towards the restoration of civil society.
    For others, there continued to be a need to deny. An elderly woman 
approached me every morning as I entered, to ask if I had had a 
pleasant evening, and if everyone was treating me with kindness. She 
then said to me, each morning, ``You see, we are good people here, and 
we would never have allowed this terrible thing to happen had we known 
it was going on.'' Despite the tableau of each day's testimony which 
she heard, she was not capable of facing the underlying issue of 
community responsibility for all that had occurred. Her denial and 
avoidance of responsibility was palpable. The trials of these cases are 
painful for many different reasons.
    Acknowledging these crimes and imposing appropriate punishment, is 
an important societal obligation. Permitting the opportunity for 
communal acceptance of responsibility is a necessary part of 
restoration of civil society. If we allow the opportunity to pass 
without attempting to bring as many of these cases to trial as 
possible, we loose forever the chance to understand who we are as a 
nation.
    Let us allow these trials to encourage the public debate about the 
overreaching societal and governmental conduct that both enabled these 
crimes and which continues to cause racial inequality. The goal of 
trials should not be that once over, there is no further discussion to 
be had. The opportunity for exploring how we move forward to heal the 
racial divide would be lost. Understanding our history is the necessary 
step towards ensuring that we move ahead as a society which is 
committed to healing our wounds, and achieving reconciliation.
    The trials provide an opening for the process of restorative 
justice. They are important to the families who were so cruelly hurt by 
the crimes, but equally important for our nation.

    Mr. Nadler. I thank you, and I now recognize Mr. Sykes for 
5 minutes.

   TESTIMONY OF ALVIN SYKES, PRESIDENT, EMMETT TILL JUSTICE 
                 CAMPAIGN INC., KANSAS CITY, MO

    Mr. Sykes. Thank you very much, Mr. Chairman. First I 
would, because I was just invited Thursday and was in the 
middle of the James Seale trial in Mississippi, I was not able 
to prepare a written testimony, so I would like to be able to 
submit it following. My name is Alvin Sykes. I am president of 
the Immaterial Justice Campaign. I am a 38-year veteran of the 
human rights victim rights field. On December 30th of 2002 Don 
Berger and myself met with Mamie Till Mobley in her home and 
discussed with her both the possibility of a Federal-State 
investigation, as well as an opportunity to turn the poison 
from Emmett Till's death into the medicine of justice for many 
others.
    Following a meeting 4 days later the Immaterial Justice 
Campaign was formed. Mrs. Mobley was the first chairperson and 
I was designated as the coordinator. Two days later, 
unfortunately, she passed away. Having passed the torch to us, 
we continue with the mission of both missions. One, to get a 
Federal-State investigation into the death of Emmett Till, as 
well as to pursue potential legislation. First, with the 
investigation. After the meeting, I contacted the Civil Rights 
division of the Justice Department where I have had a 32-year 
partnership relationship with them and requested that there be 
an investigation into the case. I also knew at the time that 
there was going to be a jurisdictional issue, since they had a 
standing policy that they would not conduct investigations in 
cases that they could not prosecute and that the Civil Rights 
statutes at the time had expired with the 5-year statute of 
limitations.
    During the course of the investigation, of the request for 
the investigation and review that was started, we became aware 
of a memorandum that Antonin Scalia, who at the time was 
assistant attorney general for the Office of Legal Affairs at 
the Justice Department, had made in 1976 due to the request of 
an investigation into the death of President Kennedy. At the 
time that President Kennedy was assassinated there was not a 
Federal statute in existence that made the killing of the 
President of the United States by a single person a Federal 
offense. He was asked to do a report and see whether there was 
jurisdictional ways to be able to look into it.
    He then came up with 28 U.S.C. 533. I won't go into the 
detail. In a written report it will elaborate. But this allowed 
for investigations to be done by the Federal Government even 
though they could not prosecute, didn't have jurisdiction to 
prosecute the case. So we were able to then get them to move 
forward with their part of the investigation but we also 
understood that when you went this route and it wasn't a 
Federal statute involved that you could not have the use of a 
Federal grand jury. So we approached the district attorney in 
Mississippi and asked that she become a co-partner with this 
investigation so that the investigation could be conducted, and 
then results turned over to the State for prosecution in their 
case.
    They, in fact, did go through with that partnership and an 
investigation was conducted. And you are aware of the results. 
Following that--I mean, during the course of that period, we 
became aware that there were many, many unsolved Civil Rights 
era cases that did not have the notoriety of immaterial or the 
three Civil Rights workers. That there needed to be a systemic 
way to go after all of these cases. At that time, Senator Jim 
Talent was my senator from Missouri. And in conversation with 
him, I approached him about there being this systemic approach. 
That was the beginning of the Unsolved Civil Rights Crime Act.
    We feel that this legislation is very much important and 
that they recognize that the majority of these cases that could 
be prosecuted would be prosecuted on the State level. But we 
also understood that the State prosecutors did not have the 
resources to be able to go forward and prosecute and 
investigate these cases. And a lot of the witnesses were 
scattered around the country.
    So we allowed for in our effort to have this joint 
investigation, but we also felt that there was another 
provision that was not in the prosecutorial side of it. And 
that relates to the part relating to the community relations 
service of the Justice Department. We knew that since people 
were hesitant about cooperating with the Justice Department and 
with law enforcement that there needed to be a proactive effort 
to go out and find people who left the south, migrated to the 
north, such as Detroit and Chicago and get their minds opened 
up to come up with the names of the people who were either 
perpetrators or were victims in these cases.
    So in short, we are looking very much forward to being able 
for this legislation to go forward. I must return back to the 
courtroom in the James Seale case this afternoon. And my last 
comment I would like to make is to the perpetrators who 
committed these deeds and thought that they got away with it 
long ago. We strongly encourage you that once this bill is 
passed that you contact and retain attorneys, have your 
attorneys contact the prosecutors and start plea bargaining and 
making it easy on yourself because we are coming after all of 
you that are out there and we want to be able to bring you to 
the bar of justice. And for those that we don't get, we want 
you to die fearing that you are next. Thank you.
    Mr. Nadler. I thank you, sir. I am going to do something a 
little unusual now. Because we have a reporting quorum for the 
bill and because that reporting quorum may not sustain itself, 
I am going to recess the joint hearing of the two 
Subcommittees. I would ask the witnesses to remain. I am going 
to recess the joint hearing of the two Subcommittees and then 
call a meeting immediately of the Subcommittee on the 
Constitution, Civil Rights, and Civil Liberties for the purpose 
of recognizing the bill that is before us. And then we will 
return to the hearing of the two Subcommittees. I now declare 
the hearing of the two Subcommittees in recess.
    [Whereupon, the Subcommittees recessed for purposes of a 
markup.]
    [Whereupon, the Subcommittees returned from recess.]
    Mr. Nadler. I now declare the joint hearing of the 
Subcommittee on the Constitution, Civil Rights, and Civil 
Liberties, and the Subcommittee on Crime, Terrorism, and 
Homeland Security resumed from its recess. The Chair will 
recognize himself for 5 minutes for purposes of asking 
questions. Let me ask Mrs. Evers. Do you think this legislation 
and the actions that will stem from it will help surviving 
family members to heal.
    Ms. Evers-Williams. I certainly think that this legislation 
would do that because it would speak not only to the family 
members, the survivors, but to the Nation as a whole, that 
these people's lives were not in vain. And I know we hear that 
term used all of the time. But it is very necessary to know 
that your loved one was an American citizen whose country 
believed in them. And we have a strong justice system to pursue 
those wrongs and see that they are corrected. I truly believe 
it would give a sense of relief and a deep sense of dignity and 
pride. And as I mentioned, to me it is very important that our 
younger generations also will be able to study our history, to 
look back and to see that even 30, 40 years later something 
positive has been done about those ills in our society.
    Mr. Nadler. Thank you. Let me just ask one more question. 
After, assuming that the Congress passes this bill, as I assume 
it will, can you think of anything more that Congress could be 
doing to help resolve these cases and to promote healing for 
the family members who suffer so greatly? Is there anything 
else we can be doing besides this legislation.
    Ms. Evers-Williams. I'm sure there must be. I don't have a 
plan at this point. But with the organizations that we have in 
this country, Civil Rights organizations, the Poverty Law 
Center and others, I would really like to see a coming together 
of family members, legal persons, representatives come together 
and declare some kind of we have arrived at this point. 
Something that would be positive and that would send once again 
that positive message. There are lots of spokespersons out 
there who would love to express their feelings. And I don't see 
any action as a negative one that we would take, but something 
positive, something uplifting, perhaps even something after the 
passage of this legislation that would be very public and very 
positive.
    Mr. Nadler. Thank you very much. Mr. Jones, would this 
legislation have been useful to you when you were prosecuting 
the 16th Street bombing case?
    Mr. Jones. Mr. Chairman, I think so. Obviously because it 
would have focused on the efforts. There would already have 
been something in place, a mechanism in place. My predecessor 
who was in the office who really opened the file had to kind of 
reinvent the wheel a little bit to try to look at these cases. 
You normally, as a United States attorney, go back. So we were 
kind of following the lead of the Evers case in Mississippi. 
But ultimately in our office, it was funded by the Justice 
Department. So we were going back to the then-Attorney General 
Janet Reno, who was very supportive. And so we were kind of 
creating the mold again, I think, for Federal offices. And as 
it turned out it really is a model I think for both cooperation 
of Federal and State offices.
    Mr. Nadler. Thank you. And finally, is there anything else 
you think Congress should be doing to help resolve these cases.
    Mr. Jones. Mr. Chairman, I think that as a Congress this 
bill is very important. But I think as individual public 
servants going back to your districts in talking about these 
cases, in talking about the issues that still face people 
today, as Ms. Bender was talking about, I think that that does 
more than anything other than what we are doing with these 
bills and the prosecutions that could have a very dramatic 
impact. These cases should not be forgotten. And Mr. Chairman, 
if I could, I wanted to clarify one thing I said in my opening 
remark. I don't want anything I said about the FBI files to be 
misunderstood. I got tremendous support from the Federal Bureau 
of Investigation, absolutely tremendous support. I believe 
their hearts were in the right place, their professionalism, 
the two agents who worked the case with the Federal employees, 
and I just didn't want there to be any misunderstanding.
    Mr. Nadler. I don't think there will be any 
misunderstanding between the different attitudes of the FBI in 
1970 and 25 or 30 years later.
    Mr. Jones. That's right. Thank you.
    Mr. Nadler. Thank you. I yield back to the gentleman from 
Arizona who is recognized for 5 minutes.
    Mr. Franks. Thank you, Mr. Chairman. Mr. Chairman, I 
believe that Ms. Evers and Ms. Bender probably feel these cases 
in this situation as intimately as anyone in this room could 
possibly imagine. And I don't know that any of us can truly 
identify with their circumstances to be widows of murdered 
Civil Rights leaders. And I would like to, if I could start 
with Ms. Evers--Ms. Williams and----
    Ms. Evers. Ms. Evers-Williams.
    Mr. Franks. Ms. Evers-Williams. Okay, I'll get it right. 
And just tell us why you think that this is important to the 
past and to the present and the future what has occurred today.
    Ms. Evers-Williams. This hearing specifically.
    Mr. Franks. Yes, ma'am. And at least the first stage of the 
passage of this bill.
    Ms. Evers-Williams. It is important because it sends a 
message. If it goes no further than this Committee, these 
hearings, it sends a message to America as a whole that at 
least we as a Nation, we are entertaining legislation such as 
this. I do believe that it would be watched very carefully 
throughout this country to see what happens to it. If the 
legislation is passed and it is what injected, if I might put 
it that way into the community, in terms of its importance, how 
it relates to today, the past and how it relates to today, that 
it is going to have a positive impact in the communities around 
this country. And it certainly gives us hope for the future if 
we have come this far. It would say to me that this country has 
not given up on full justice. And that as Americans we can feel 
proud of it. We don't have to hide our heads, shrug our 
shoulders. When our leaders speak about justice and equality in 
America and other countries of this world, look at us and 
point, which they do, to the inequities in our society, to the 
murders that took place here, it is more ammunition to stand up 
and be what we truly say that we are. And it gives our young 
people even more benefit of knowing the past and feeling 
strongly about their future.
    Mr. Franks. Thank you, Ms. Evers. Thank you very much. Ms. 
Bender, what would be your response?
    Ms. Bender. Well, I don't know that it is a response as 
such. As I said in my remarks, and as I have said on numerous 
occasions, these cases are important to be brought to trial 
because they are not only a matter of what happened to people 
who were killed and people's families, but perhaps in a way 
that--I can only speak for me. I cannot speak for other 
families. I can say that for me what happened to me, when I was 
22 years old, has become integrated into the fabric of who I am 
now. All of us have had things happen in our lives that we come 
to understand and they make us the people we are. Having said 
that, what I think is important for me as a member of this 
society, as a proud citizen of this Nation, is to feel that 
there is a commitment to understanding and to helping our 
children, our grandchildren, understand how we got to where we 
are and what we are going to do about it.
    And there is a lot to be done about it. I believe that Mr. 
Nadler asked Ms. Evers-Williams what she thought was something 
that the Congress can do. I think what the Congress can and 
must do is return to the unfinished business in this country of 
addressing racial inequalities. And if doing that you bring 
justice.
    Mr. Franks. Thank you, Mr. Chairman, and thank both of you 
ladies. I think that your husbands would be extremely proud of 
you and grateful for carrying on their legacy and their memory 
in such a noble fashion.
    Mr. Nadler. I thank the gentleman. I now recognize for 5 
minutes the Chairman of the Subcommittee on Crime, Terrorism, 
and Homeland Security, Mr. Scott.
    Mr. Scott. Thank you. And I thank Ms. Williams and Ms. 
Bender for your continued activity making sure you bring 
justice to everyone, and that was branch president for the 
NAACP back in the 1970's. So I am familiar with Ms. Williams' 
hard work in that organization over the years. Particularly 
when you were elected chairman you did a lot to bring the NAACP 
back together. So thank you very much. Let me ask Mr. Cohen, 
the FBI, you mentioned the form of partnerships between the 
NAACP, Urban League and Southern Poverty Law Center, are those 
organizations participating to the fullest extent appropriate? 
Is there more that those organizations can do to help in this 
effort?
    Mr. Cohen. Mr. Chairman, we have offered to help in any 
possible way that we can. When the partnership was announced in 
February of this year, I took it as more of a metaphoric thing 
than a literal thing because we had sent the FBI our list of 
cases. And of course, we stand ready to help them in any way 
that we can. I might not have called it a partnership at the 
time. I saw ourselves as applauding their initiative and 
offering our assistance in any way. I think obviously with the 
law enforcement agency to have partnerships with private 
organizations, there could be problems. But we are supportive 
of their work.
    Mr. Scott. Have there been lines of communication so that 
you can get all of the information you have available that 
might be helpful to them, have you been able to get all of that 
information to them?
    Mr. Cohen. Yes. We have sent them our entire files on all 
the cases that we have. At this point, I do not believe that 
there has been a central spot in Washington where these 
investigations are being coordinated. We had a number of calls. 
And when we spoke to people in Washington, they asked us to 
refer the callers to persons in various states. We do think it 
would be helpful to have a central repository in Washington, 
and I hope that the passage of this Act will prompt the 
creation of such a thing.
    Mr. Scott. Thank you. Mr. Jones, if you bring the cases at 
one point or another, you are going to have to face a jury. 
Have we gotten to a point where we can have confidence that the 
juries will be fair?
    Mr. Jones. I believe so, Mr. Chairman. I think the cases we 
prosecuted in Birmingham are evidence of that. There has been 
many more cases, one of these cases than have been lost. And I 
certainly think in our two cases, we spent a lot of time with 
the jury, we spent a lot of time with questionnaires, we spent 
a lot of time in voir dire talking to the jurors. And what we 
ended up with were jurors that were a cross both gender, racial 
and age barriers. And I certainly think we can find that and I 
think we can continue to find that.
    Mr. Scott. During voir dire, how many people were you able 
to strike for cause because of perceived bias.
    Mr. Jones. I don't recall exactly. But there were a number 
of people. And there were biases on both sides. There were 
those that expressed concern about the prosecutions, that it 
was maybe being done for political reasons. And the judge was 
pretty liberal with our ability to allow strikes for cause. We 
had a large panel, we had plenty to choose from. So he was 
pretty liberal in allowing strikes for cause. On the other 
side, we also had folks who felt like that they could not be 
fair to the defendants. They had grown up with this crime, 
lived in the communities. And overall, I think it balanced out 
very, very well. The judge that handled the case was 
tremendous.
    Mr. Scott. What kind of evidence is available. I assume 
there is not much DNA. But what kind of tangible evidence do 
you have available?
    Mr. Jones. In our case, we had virtually none, except for 
that tape-recording which we found. There are a lot of tape-
recordings out there.
    Mr. Scott. Have you been able to get those? 
Notwithstanding, how they were obtained, have you been able to 
avoid the exclusionary rule?
    Mr. Jones. We did with the one tape. That was the only one 
that we found that we wanted to try to introduce.
    Mr. Scott. Do you believe there are others.
    Mr. Jones. I would not be surprised. There were just so 
many wiretap tapes, undercover tapes made during the time. It 
is just hard for me to believe that there is not something 
somewhere that is a pretty inculpatory to certain defendants.
    Mr. Scott. Could I get one other question in briefly?
    Mr. Nadler. The gentleman is recognized.
    Mr. Scott. Can you say a word about the reliability of the 
testimony.
    Mr. Jones. I felt that in our cases that we had quite 
reliable testimony. We didn't have a tremendous number of 
witnesses. In the Blanton case, we had the tape-recording, we 
had the testimony of a man, we actually read the testimony into 
evidence, who was kind of a security guard. We called them 
defense league people that helped guard the church who saw 
Blanton and Robert Chambliss who was convicted in the 1970's 
outside the church at 1 in the morning.
    In the Cherry case, the Cherry case was a lot different. 
The Cherry case consisted primarily of the tape and the fact 
that Cherry had lied so many times to the FBI over the course 
of his career. He just couldn't keep them all straight. And 
that can be pretty damning evidence sometimes. And in addition 
he made a lot of boastful comments that helped convict Byron De 
La Beckwith in Mississippi and it helped convict Bobby Frank 
Cherry.
    Once he called a press conference after he had been 
interviewed to complain about the FBI, to complain about the 
harassment and declare his innocence, the phone started 
ringing. His granddaughter called. His ex-wife found us. So 
there were other people who came forward with testimony about 
what Mr. Cherry said over the years. And it was again damning 
and very reliable evidence.
    Mr. Scott. Thank you.
    Mr. Nadler. I thank the gentleman. The gentleman from 
California is recognized for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman. Mr. Jones, 
I would like to ask you about one of the issues that as got to 
come up right away. Defense attorneys have got to bring up a 
motion to dismiss based on the fact that it is unfair to a 
defendant because witnesses have died. And if you can't show 
that the defendant has done anything overtly to push off the 
prosecution, how do you respond? I noted in your written 
testimony, you talked about the law in Alabama being very, very 
tough on this point where you say the defendants must not just 
show a delay, but an intentional delay designed to gain a 
tactical advantage and that the delay caused actual substantial 
prejudice in the conduct of his defense. To your knowledge, is 
that a higher standard in Alabama than is found in a lot of 
other States and is that a higher standard than on the Federal 
level?
    Mr. Jones. Congressman, I believe it is a fairly standard 
actually. Remember that the statute of limitations is passed by 
State legislatures and Members of Congress. And in murder 
cases, there is no statute of limitations. So the issue is 
always going to come up in any kind of delayed case. In this 
case, the defense could not show any delay, purposeful delay on 
the part of the State of Alabama. And this was an unusual case 
because I was the United States attorney, but actually was 
designated as a special assistant attorney general for the 
State. They couldn't show that. And in fact, they really 
couldn't show any prejudice from witnesses because there were 
really no witnesses that really supported their defense.
    Mr. Lungren. And you mentioned that after what was his 
name, Cherry had the press conference that all of a sudden the 
dike broke and you got people coming back with information.
    Mr. Jones. Yes, sir. The media has played an important 
role. And I think Ms. Evers-Williams will attest to that as 
well. The media has played an important role in getting the 
word out about these cases, the fact that they are going to be 
looked at again and the fact that there is a serious 
investigation. And when Mr. Cherry had his conference the phone 
started ringing.
    Mr. Lungren. Let me ask you about that because you talked 
about his granddaughter, you talked about co-workers and 
others, former wife, et cetera. Did they come back out of the 
woodwork, so to speak, because they now knew an investigation 
was going on or was this something that sort of psychologically 
hit them where they realized they had to come forward.
    Mr. Jones. I think it was primarily the fact that they 
realized there was an investigation going on. The ex-wife, it 
was an interesting story with the ex-wife----
    Mr. Lungren. It usually is.
    Mr. Jones. This one was even more. She was Cherry's third 
wife. I think three out of five for Mr. Cherry. And she had not 
been with him very long. And, in fact, had lived in Chicago and 
they were moving back to Birmingham and she described him as 
very abusive and made up her mind to leave. And she told me 
that when she drove back to Birmingham in 1974 that he got out 
of the car and slammed the door and she slammed the gas and 
never looked back. And she couldn't be found. Bill Baxley had 
tried to find her. We tried to find her. My FBI agents had 
tried to find her. And she saw an article that our mutual 
friend, Ms. Evers and I, mutual friend Jerry Mitchell wrote 
that hit the wire services. And she saw it in her hometown 
newspaper in a little town in Montana and picked up the 
telephone and drove herself about 200 miles because she thought 
Bob had already gone to prison. She didn't know.
    Mr. Lungren. Here's the amazing thing. During this period 
of time, he felt cocky enough and confident enough to talk to 
people. It was common knowledge in his family, according to 
your written testimony. His granddaughter, what motivated her 
in this case?
    Mr. Jones. She was estranged from the family, she was 
young, she was 22 or 23 when she came forward I believe, and I 
think it was just a different generation of people who--there 
are folks out there, there are people whose parents or 
grandparents or others who have grown up in a different way and 
want to make sure that justice is served and want to do the 
right thing. And she came twice.
    Mr. Lungren. Ms. Evers-Williams, let me ask you this. One 
of the things I find as I talk to young people about the Cold 
War, sometimes I have blank stares when I talk about communism, 
I talk about the Soviet Union, I talk about what we went 
through when we were growing up, the fear of a nuclear attack, 
those sorts of things. And so you have to restore history as 
you are explaining to them what it is. I have some concerns 
about that with respect to the Civil Rights movement.
    Do the young people today fully appreciate what you went 
through? What others went through? Ms. Bender, what you had to 
go through? It is a terrible story of hate and racism and death 
and destruction, but it is a magnificent story of courage and 
persistence and there are Blacks and Whites who are heroes as 
well as those who were devils. How do we make that real to 
young people today?
    Ms. Evers-Williams. I have taken it upon myself to be a 
teacher, to be a link between that period of time and today 
with the young people that I encounter. And I do it at quite a 
few high schools and on college campuses. There is a curiosity 
about that period of time. I think most young people want to 
hear about it. Then they conclude that they could never live 
like that, how did we do it. How did we overcome that period of 
time. They want honesty from you in terms of how did you 
actually feel. And there have been times when I have said, not 
proudly, but truthfully, that I was filled with hatred for a 
while. They want to know how did you overcome it, how did you 
get to where you are.
    We did not know about those people in those times until we 
talked to you. It is not in our school books. Our teachers 
don't talk about it. What can we do to have access to that kind 
of information. Many young people come back, and even those who 
are in graduate school or whatnot and ask what it is I can do. 
But on the other hand there are some young adults who say that 
helped them back then, I don't want to be bothered with it, it 
doesn't relate to me. So it becomes a job of taking the past, 
of relating it to today, the present, and helping them work 
through the future in terms of what everyone paid, the prices 
that they paid. I shared with a group once that I have not 
always felt like an American.
    Born in Mississippi, went through the schools, everything, 
but my sense of being an American that could treasure that did 
not exist. And I was asked well, when did you feel that way, 
did you ever feel that way. Of course I felt that way. And we 
talked about 9-11. And I said that was one time when I felt so 
American. I also went back to a time at Medgar's funeral at 
Arlington Cemetery that I felt American when they played taps 
and when that American flag was folded and presented to me. 
There is a sharing of information that is so badly needed to 
make a bridge from what was then to what is today.
    And I believe that with a number of programs that are 
taking place, and I can talk about the center's tolerance, 
other organizations that are putting information in schools, 
and the willingness to talk and the willingness for those of us 
who have been through it to be honest with our feelings and say 
we have come this far, things have been cleared for you now, it 
is your responsibility not only to learn more, but to take it 
to the next step. And that usually seems to get dialogue going 
in all of the places and it is something that is extremely 
positive.
    Mr. Lungren. Thank you very much. Thank you very much, Mr. 
Chairman, for the time.
    Mr. Scott. [Presiding.] Thank you. Thank you, Ms. Evers. 
The gentleman from Michigan, Chairman of the Committee, Mr. 
Conyers.
    Mr. Conyers. Thank you, Chairman Scott. I want you to know 
that this has been the most distinguished panel since I have 
been on the Judiciary Committee. And we have had lots of 
important people. But I'll tell you why. What else can we all 
do is being done right here now. We have got to replicate this. 
This can't be a hearing that is transcribed by the stenographer 
and put in the archives. We have got to bring this out. All of 
you are on the speaking circuits and go around and so are all 
of us. You should know as the most senior Member of this 
Committee, this is the most distinguished Judiciary Committee 
in the House of Representatives since I have been here.
    We have got an ex-attorney general from California sitting 
down on the end, Lungren. And we have got two former U.S. 
attorneys. We have got distinguished legal activists and city 
councilpersons, lawyers and even good people from Iowa. This is 
an experience not just for you in America. It is a good 
experience for us because we keep getting better and better. I 
have never heard since 1965 this much American history. And in 
preparing for this I started looking at Taylor Branch's 
trilogy. Everybody on this Committee and in the panel know 
about it.
    And it started out as a biography of Martin Luther King, 
Jr., but the detail was so enormous that it really became a 
history of the Civil Rights movement and each one of you are in 
it. I can't--that's why when you take this and what you have 
done and said here today and put them together, it's something 
we've got to go back to, we've got to make the case for 
history. Of course, young people, I had no regard for history, 
most of us didn't when we were young. We were going to make 
history. We didn't need to learn history. And of course, we 
know the fallacy of that concept, but by all of you being here 
today has been enormous in recommitting America and this 
Government to what it ought to do.
    Now, let me just point out that there are some missing 
files around here, because the FBI was secretly taping all the 
while and I would never turn to the people who were holding the 
records of the tapes to ask them were there any tapes that you 
haven't turned in yet. You know what that's like asking. What 
we have there were also a lot of records that were kept by 
those who were running the White citizens counsels and the 
police departments, and all kinds of state agencies and police 
organizations that do have materials that we have an obligation 
to continue to search for.
    Now, the reason this is so big, it took two Subcommittees 
to handle this hearing today. It is not just looking back, it 
is how we are going to move forward. When we were talking to 
the Deputy Assistant Attorney General earlier, and we started 
calling off all of the jurisdictional powers in the Civil 
Rights division, remember those? Housing, education, 
employment, hate crimes. Now here is what the budget is, this 
is the budget request. For the Department of Justice it is 21.8 
billion, but the Civil Rights division with all those 7 or 8 
responsibilities, they get $116 million.
    Now if that doesn't suggest that we need to look at our 
priorities in the Department of Justice, nothing does. Those 
are resources. We've got to put more money in this to really 
get something to happen. And so I come here today to tell you 
in the what-else-can-we-do list. We've got to have an oversight 
of the Department of Justice, because much of it, particularly 
the Civil Rights division, wasn't even created until Lyndon 
Johnson came along and the Civil Rights movement started.
    So we have got to examine who's in it, what are they doing 
and look back on their record, not to be partisan or to point 
fingers, but we've got to understand what they did, what they 
didn't do, where they succeeded and there were good chapters in 
there, but there are some things that we're not proud of, 
because in the end as much personal tragedy was involved, as 
much unknown, unsolved murders and suffering. The Government 
was involved in holding us back, it was the failure on the 
Government's part to deal with this in a more forthright 
manner, but the question is not then but now.
    We still have voting rights abuses. We still have violence 
and intimidation and terror and coercion and fear in America, 
and we want to try to get rid of as much of that as possible. 
So if I can, Mr. Chairman, I would just like to ask of these 
tremendous witnesses that we pulled together, if you have any 
words of solace and calming that would soothe me and make me 
feel even better about the nature of these hearings.
    Attorney Sykes, what do you say.
    Mr. Sykes. First, I'm not an attorney, I'm a human rights 
worker, I think it is about seeking a justice seeking 
atmosphere in this country. I think that this hearing is a very 
part of that. I think that now we will be able to close a part 
of this chapter and be able to use it to create justice and 
give a greater sense of justice in this country.
    Mr. Conyers. Ms. Bender.
    Ms. Bender. I don't know that I want to calm you down, sir.
    Mr. Conyers. Did I mention Morris Dees in my tirade?
    Mr. Cohen. You did, sir.
    Mr. Conyers. Cohen and Dees at the poverty center have been 
doing great, great work. I know he could have been a witness 
here with you, but both of you have done historic work, I want 
to remember him.
    Mr. Cohen. He would have been a very eloquent witness, it 
was Mr. Dees' idea to build the Memorial, he was so concerned 
that people had forgotten the names of the persons who had 
died, that's why we did it. I wish I could put Ms. Evers or Ms. 
Bender in a bottle and send them to every high school in 
America so they could talk about those days, unfortunately we 
can't. We send films to schools, free of charge about the Civil 
Rights era. The one thing we try to get across to people is as 
great as your former Secretary was, as great as Dr. King was, 
that it was a movement kind of the people and we try to tell 
young people that all of them are historical actors and that 
how history will remember them depends upon what they do in 
their day-to-day lives. I think we need a rebirth of that 
understanding, and the Civil Rights movement, I think, is 
probably the greatest example of that in our history. I'm glad 
you have those books.
    Mr. Conyers. Thank you.
    Doug Jones.
    Mr. Scott.  If you could be brief, because we are a little 
bit over time.
    Mr. Jones. Let me say, I tell children and kids, lawyers, I 
wish that everyone that I speak to about these cases could have 
either a case or something in their life that they did that 
means so much to so many people and it changes you personally, 
and what I think we do, this panel and what I know you have 
done for many, many years, Mr. Chairman, is to try to throw 
that little pebble in the pond and let it ripple out, and 
that's the goal.
    Ms. Evers-Williams. I'm in total agreement, Congressman, 
with my colleague here, I don't want you to come off of your 
tirade because your voice and the voice of others, your voices 
need to be heard. There is an understanding, a sense of 
urgency, commitment that's in your voice. And the more people 
who speak as you do and others to this legislation and to this 
issue the better off we will be. So I guess, in conclusion, I 
would say that my prayers are for your longevity and your 
strength and a proud voice that will help to motivate others 
and carry us through and for those of us who are here, to be 
able to support in whatever way we can.
    Mr. Conyers. I thank you all from the bottom of my heart.
    Mr. Scott. Thank you.
    Mr. King.
    Mr. King. Thank you, Mr. Chairman. First I want to thank 
Chairman Conyers for the compliment, he has not quite gone 
overboard and declared me an honorary Dr. King, I still await 
that. I appreciate the working relationship that we have here, 
the sentiment that's been expressed by all Members of the 
Committee, the testimony of all the witness.
    I want to express first that for me these experiences that 
you have related are just uttered foreign to the environment 
that I grew up in. And so I had to try to watch in on the news 
and see what was happening and try to relate to that as a young 
man that was formulating his ideology, and now I find myself 
several decades hence having a far better understanding of 
circumstances that were taking place in places like 
Philadelphia, Mississippi that I have been to visit, and 
certainly compelled to sense what went on there.
    I remember the time I think that it framed for me the most 
was on a random trip down along on the east side of the 
Mississippi River, and by happenstance, my wife and I drove 
through Port Gibson, Mississippi. And as we drove through 
there, I recall that there was a priest from our hometown who 
had the charge of that parish, who I believe is St. Joseph's 
parish in Port Gibson, Mississippi. And so as a surprise visit 
we stopped to visit Father Tony Putins, he was amazed that we 
would show up at his door, but he took us next door from the 
rectory into that church which was built in 1848 by the hands 
of the family of James Boyd of all people, some of the hands, 
I'm sure there were many others. The woodwork carving was done 
by the Boyd family, I understood, it has what I call igloo 
glass that makes it look like you're standing in an igloo.
    As we stood there on the floor of that church, he related 
the week before they had buried the newspaper editor who had, 
in 1967, defied the segregation within that congregation, in 
that that church was built with the ground floor for White 
families, the balcony for Black families, and that the White 
editor of the newspaper had in 1967 taken his family, his five 
children and his wife and they went up to the balcony to sit 
with the Black families. At that moment about half of the White 
families in the church walked across the street to the other 
church where those families go to this day and have an 
integrated congregations of about 75 families in that parish. I 
relate this story because for me to stand there, it brought 
together the understanding that there were people that believed 
they could build a house to worship the Lord and segregate us. 
And I could not comprehend that coming from my background.
    So as I listen to your testimony today, I comprehend it far 
better than I would have had I not stood in that church and 
gotten a lesson from Father Tony Putins. As I hear the solid 
strength ring through your testimony here, I think that you 
have a message that transcends the decades and the generations, 
a message that needs to be the bridge as you said, Ms. Evers-
Williams, you need to make a bridge from what was to what there 
is today but also into the future.
    Perhaps this time would be a good time to ask the question, 
if I could, Ms. Evers-Williams, what's that look like and how 
do we get there? I will note that we made a tremendous amount 
of progress and my sense is the tension have diminished 
dramatically, but how do we get to where we need to go and how 
would you define that?
    Ms. Evers-Williams. If I had the answer to all of that I 
would market it, I tell you.
    If we take it as an individual challenge, one-to-one we can 
make a lot of progress, but it will be much, much slower. One 
of the things I believe we need desperately is to upgrade our 
educational system. It's just been within the last few months 
that the State of Mississippi passed legislation to have Civil 
Rights taught in their schools and prior to that time there was 
nothing. But if we build bridges as I've heard someone say, a 
brick at a time, a martyr at a time and enough of us are doing 
this, we will eventually have a strong bridge to walk over.
    Using, and I mean that in a positive way, using the 
resources, the human resources in a manner in which we can 
reach out to young people through the different organizations 
that already exist to bring dialogue groups together, to bring 
community groups that are working to uplift people in that 
community, whether it be unwed mothers or welfare mothers or 
whatever to inject into the day-to-day living this whole need 
for societal change and get them actively involved in it in 
some way. I'm sure that there must be groups out there that are 
doing this kind of thing, but perhaps there needs to be some 
research on who is doing what and see what we can do to bring 
them together. It's a slow process, but we have seen progress 
made and I would just like to say we should continue.
    Mr. King. A 15-second concluding remark I would appreciate 
the opportunity to say as I look at this from the outside 
however great the pain, however great the sacrifice that era of 
this nation's history was a glorious time, because we rose 
above something that drug us down and we continue on the 
trajectory into the future built upon this foundation you have 
articulated. I want to thank you all so much for your testimony 
for being here today and I yield back.
    Mr. Scott: Thank you.
    Mr. Sykes?
    Mr. Sykes. I have a 2:20 flight due, I ask to be excused so 
I can try and make it.
    Mr. Scott. Are there any questions just for Mr. Sykes at 
this point? He has a plane, very quickly.
    Ms. Jackson Lee. First of all, can I just proceed.
    Mr. Scott. No, he has to leave, if somebody has a question 
just for him.
    Ms. Jackson Lee. Mr. Sykes, let me thank you for being a 
human rights worker. You had to deal with a lot of families, we 
lost Emmett Till's wife, should that be a component as well in 
the legislation to embrace and to make sure we have resources 
for those families?
    Mr. Sykes. The 1.5 million in the community relations 
service is part of the outreach that it does, in fact, address 
interaction with the family. What it helps do is have the 
families and the other witnesses feel comfortable coming forth 
to and cooperating with the Justice Department and the other 
investigators, so that's the part that does----
    Ms. Jackson Lee. If it specifically----
    Mr. Scott. The gentleman has a plane.
    Ms. Jackson Lee. If it more specifically states it in the 
language it would be preferable if the families were 
specifically stated in there.
    Mr. Sykes. Yes, it would certainly be included.
    Ms. Jackson Lee. Thank you.
    Mr. Scott. Without objection, there may be other questions 
we would forward to you in writing if you would kindly respond. 
We appreciate your testimony and hopefully you can make your 
plane. Thank you very much for being with us.
    Mr. Sykes. I need to get back to the trial.
    Mr. Scott. Thank you.
    The gentlelady from Texas, Ms. Jackson Lee is now 
recognized.
    Ms. Jackson Lee. Let me thank all of the witnesses for what 
has been an enormously powerful experience. Mr. King, let me 
thank you because I think what we saw today is that every one 
has their individual and singular experience in this journey, 
American journey of Civil Rights.
    It is interesting that the basis of solving the cases were 
if you will on the backs, on the shoulders I think it is better 
to say of family members, some lovingly, some disgruntled, but 
I think the issue of the burden on families that have carried 
this loss for so long, Ms. Myrlie Evers-Williams, finding your 
American hood at the time you were able to sit at the Arlington 
Cemetery and, in essence, be brought back into the fold, back 
into America's true values is an important issue for me.
    I wanted to just cite what I think is an eloquent 
enunciation, families are also victims you said.
    Ms. Evers-Williams. Yes.
    Ms. Jackson Lee. They go through an emotional hell, sounds 
of terror, such as guns and firebombs, the loss of love, the 
loss of companionship, the loss of care are all vital elements 
that sometimes go unnoticed, or as we rush toward the judgment 
of the conviction we have to rely upon families, and to a young 
22-year-old who was probably part of a living part of one of 
the more renowned viciously and violently renowned, the thought 
of three young men having to either be killed or to have 
suffocated or however the ultimate, but to be dug out in the 
most horrific set of circumstances does not in any way diminish 
any other violent death, but certainly, if anyone had an iota 
of history, they would remember, as they would remember a 
Medgar Evers as he knelt on that yard, it is forward embedded 
in my vision to see that and to see you holding him in your 
arms.
    So I would appreciate it, if I could ask all of the 
witnesses, to just make a comment about the importance of the 
family in pursuing these cases, particularly to the U.S. 
Attorney Jones on providing the momentum and the persistence of 
the case going forward so that you, the appointed or elected 
person can have an excuse, if you will, as you speak to the 
media, as you speak to those who may not be outright opponents, 
but are sceptics, how important it is.
    I raise this question because of the necessity of the 
timeliness, we need to move on these unsolved cases. Family 
members don't live forever and so if we have third cousins or 
someone that are still here, how important that is in being 
able to bring the conclusion.
    Ms. Bender.
    Ms. Bender. Well, I think sometimes people use the word 
``closure'' and I find that to be a very, very overused and not 
particularly helpful word because it implies that you put 
things in a box and put them away. I don't think that's what 
happens.
    For me, the Killen trial was an astounding experience 
because what I was not prepared for was the way in which people 
in that community reacted to the grief and sorrow that they and 
fear that they had lived with for 41 years before the trial, 
and this was both White people and Black people in the 
community who talked about their fear, who talked about their--
some of them their unwillingness to acknowledge what had 
happened.
    I met one man who was in his late 50's who was a 
Mississippi State patrolmen who asked to speak to me in 
private. He was a White man and he described to me with tears 
coming down his cheeks, he was very tall, good looking man, and 
there were tears rolling down his cheeks as he said to me, I've 
been in law enforcement since I was a very young man in my 20's 
and I saw--I knew very bad men who were a part of law 
enforcement in this State, and I knew very bad things, they are 
all gone now, they have retired from the ranks or they have 
died, and I try to tell the young officers what it was like, 
they can't understand.
    I don't know why that man was crying, I think it was partly 
his acknowledgment that he was aware of evil and his effort to 
talk to me about it was I think some little step in his own 
effort to reach for some kind of redemption. I think these 
trials are terribly important, not just to family, but to all 
of us.
    Ms. Jackson Lee. Mr. Cohen, Mr. Jones and Ms. Williams, 
could you quickly answer the importance of family and I agree 
not for closure, but to continue to ensure that we finish the 
task on the criminal justice side.
    Mr. Cohen. When we dedicated the Civil Rights Memorial in 
1989, we had hundreds of representatives, of the 39 of the 40 
families whose names were on the Memorial. The only ones who 
were not there, Paul Giehardt's family, a French reporter 
killed at Ole Miss, it was the funeral many families had never 
had. It was a tremendously important event, just sitting with 
people and talking at the Memorial about what it meant to them 
was a very, very moving experience. Yet I know that for many 
people, Miss Till, for example, the fact that there had never 
been justice in her case was a wound that she lived with every 
day, and I know that there are many, many other family members 
who are in that same position now.
    Ms. Jackson Lee. Mr. Jones.
    Mr. Jones. Yes, I think every prosecutor will tell you the 
involvement of the victims is extremely important. After all, 
when you really boil it right down, we can talk about the 
significance and the historical significance of these cases, 
but they are murder cases, they are real people that had real 
victims. And while people can wait for the justice system to 
work, it has to work and we have to focus on the individual. We 
tried our case not as a historical Civil Rights case, but as a 
murder case where four young children were killed and it is 
never too late to go about that. I will tell you the victims 
and families were very supportive. They maintained--you have to 
maintain a good relationship with them. And I relayed a 
personal story, the greatest compliment I ever had was after 
the Cherry trial, the second trial, Ms. Alva Robinson, who I 
became very close to, passed away that summer just within 2 
months, her son at the Memorial service said, thank you for 
coming, but thank you for what you did, it was because of you, 
she died with a smile on her face. It is all about the 
families.
    Ms. Jackson Lee. Ms. Williams.
    Ms. Evers-Williams. As I was preparing to come to this 
hearing, I spoke to my younger son, who was three at the time 
when his father was assassinated. He said, Mom, how are you 
feeling about this? I said, you know, the fact that I'm 
testifying has brought so many memories back that I thought I 
had put aside. We continued to talk and he said to me I know 
when I reached a point where I could deal with my dad's death. 
And I mentioned the time that just before the trial that 
Medgar's body was exhumed from Arlington, taken to Albany, New 
York, and they did another examination of his body, got the 
evidence that they wanted.
    This young man insisted on going and being there, he said 
he wanted to take care of his dad. He was told that he would 
not be able to see Medgar's remains in the casket when was 
opened. Van's response was you will have to kill me to keep me 
out of there. I said, please, let him see his father's body 
whatever remains there. It just so happened that when that 
casket was opened, Medgar's body was in perfect condition 
except for the tips of his fingers and I knew then and there 
believing as I do in a greater spirit than us, that he remained 
in that condition so his son, who was 3-years old at the time, 
could see his father.
    And Van said to me when he returned home, now I know where 
I came from. And I think that sentence now I know where I came 
from, probably speaks to what we are talking about now of 
knowing the history, of knowing who we are. Of being able to 
forgive and be willing to go on. As Medgar said to me, Myrlie, 
hatred is bad. Those people that you hate, most of them don't 
know it. There are those that you hate, they could care less, 
and the best thing for you to do is not hate and rise above 
that.
    I mention those two things, it is not really answering your 
question, but they are things that happened in the lives I 
believe of the people of the relatives of the victims that 
little by little make a change in your life and you find 
positive ways of going on and shed contributing.
    For me, my coming here today was a little tougher than I 
thought it was going to be emotionally. But I'm so glad that I 
can say with this 44th anniversary that I was here, that I 
participated in some way in what I hope will be a bill that 
will pass that will say America, you are on your way to a full 
justice system.
    Ms. Jackson Lee. I thank the gentlelady and I thank her for 
her service as the first woman to chair the NAACP board, 
powerful and continue in your power. I yield back.
    Ms. Evers-Williams. Thank you.
    Mr. Scott. I don't think she was the first woman.
    Gentleman from Alabama.
    Mr. Davis. Thank you, Mr. Chairman. Let me do one brief 
thing with my time, first, I want to make sure all of you note 
the Chairman of the Committee, Mr. Conyers has been here the 
entire time of this hearing. He is not the Chair of the 
Subcommittee, and the fact that he has spent now two and a half 
hours, 3 hours worth of his time, I want you all to appreciate 
as people who don't come on the Hill everyday how rare it is 
for someone who is not chairing and who wasn't talking the 
whole 3 hours of that time, Senate they can talk all 3 hours, I 
want to thank John Conyers for being here.
    Mr. Jones, I would like to share with the panel a story 
that I have told you privately several times, because I think 
it is illustrative for the reporters who are here and the 
people left in the audience. I was a television commentator 
during the first trial which I believe was the Blanton trial, I 
believe. And I dealt with the reporters so I picked up all the 
scuttlebutt about the trial. There was a very strong feeling 
that you were going to have a hard time getting a conviction. 
You had a racially mixed but predominantly White jury, you had 
frankly an old, battered, broken White man who was sympathetic 
in terms of his physical appearance. His whole appearance 
appeared to say, leave me alone, I don't have a lot of time 
left anyway.
    There were a lot of people who wondered if on 40-year old 
evidence, 40-year old eyewitness statements and statements in 
general, a lot of people wondered if you had any chance to 
prevail.
    The day the jury went into deliberations they were sent to 
lunch and a young woman who used to work on my staff but was 
then a lawyer in Birmingham watched them having lunch at the 
Birmingham Museum of Fine Arts. The Black jurors all sat at one 
table, the White jurors all sat at another table. I remember I 
wasn't in Congress then, she wasn't working for me, she called 
me and she said, there is no way that a jury of people who 
can't even sit together for lunch will come back and do the 
right thing. So she predicted hung jury.
    I remember getting a call on my cell phone from the 
producer of the station saying there's been a verdict, can you 
help us open up the newscast on 5.
    There was gossip that they've already come back and said 
it's a hung jury, a lot of people were expecting after 2 hours 
that they were so locked into their past and their skin color 
that they couldn't agree. One of the most gratifying things 
that I have witnessed in my time as an attorney was to have 
those 12 jurors who couldn't even eat lunch together a few 
hours earlier to say that the justice in this case was so 
manifest that they had no choice but to do the right thing.
    So Ms. Bender, when you talked about the redemptive power 
of these trials, yes, it is redemptive for the families, yes, 
it is redemptive if you believe in justice, it is also 
redemptive if you believe in the modern south. It's redemptive 
if you believe our region and people are changing and 
extricating themselves from the foxholes they have lived in for 
most of their lives.
    So I want to thank Doug Jones one more time and all the 
witnesses on this panel for their courage and for what you have 
done to help redeem the modern south and I yield back the 
balance of my time.
    Mr. Scott. Mr. Ellison from Minnesota.
    Mr. Ellison. Thank you again, Representative Davis, that 
was very important that you mention, that's actually where my 
question goes, if the trial was redemptive, because it allowed 
us to in some way face the past in some way, I don't know if 
corrective is the right word or face it, what about the 
important of pursuing those unresolved cases as the trial 
itself helped to, in some way, rectify the past, does the 
unresolved nature of the cases that still exist continue to 
exact a price, inflict a wound, leave a scar? And what does 
that look like and what does that mean.
    Ms. Bender?
    Ms. Bender. I would say, yes. I would say that there are 
many, many, many of these cases that have never been 
acknowledged, never had any particular notoriety. You know, the 
case that's going on right now, the Seale's trial involved two 
men Mr. Dee and Mr. Moore whose bodies were found when the 
rivers were being dragged for the Neshoba murder victims, as 
soon as it was realized that they were not any one of those 
three victims, that case disappeared and it was known very 
early on who the probable killers were. It was just one of the 
great untried crimes of the south. There were two Black kids, 
19 years old, their terrible crime was they were hitchhiking.
    So yes, it is important that these cases be tried. It is 
part--if you want to frame it in redemptive terms, it is part 
of national redemption to understand how deep the wounds are.
    Mr. Ellison. Ms. Bender, it is funny you should point that 
out, Representative Davis and I are from of the same era and we 
probably would be the same age as your children are. I could 
tell you growing up that both of my parents one from Louisiana 
and one from Georgia there are so many things they just really 
don't want to talk about and they actually begin to crack a 
little when they start talking about it.
    Do you think there is such thing as generation until pain, 
even if you were you weren't there for the facts or too young 
to realize what was actually happening, is it possible the next 
generation can sort of get--can feel the pain of what happened 
because they were raised by the survivors of the tragedy? Am I 
making any sense Ms. Evers-Williams right now? I have in mind 
the strong emotion that your sons experienced, why he 
absolutely had to be there at that exhumation, what is the next 
generation dealing with if we don't, in some way, address these 
unsolved cases?
    Ms. Evers-Williams. That's why I think we have to address 
them. It is bridging that gap, communication has an awful lot 
to do with it and as you mentioned your parents and many others 
choke up.
    I have found in my family and in other families too the 
more you talk about your pain and about what happened, the 
easier it becomes to overcome it, you can emote one way or the 
other those young people in the family have a chance to see it 
and to I think better understand it. I had an opportunity to 
talk to a group of college students and many of them cried 
because they didn't know. They cried because it had happened. 
They cried because they didn't realize that in a time and place 
in America these things happened and they didn't know. I'm not 
sure whether they were crying because it had happened or crying 
because they didn't know and they felt deprived because they 
did not know.
    Tears flowed freely with them. And I had an opportunity to 
see some students later after that, a year or so later, and 
they told me how that had changed their life and how they had 
decided to go into another area of expertise rather than what 
they had thought.
    So you don't know when you talk--when you remote, when you 
share exactly what good is going to come from it.
    Mr. Ellison. Mr. Jones.
    Mr. Jones. I would like to follow up on the question Ms. 
Bender addressed, because I agree with her, but I also come 
about at a little bit different way because we keep talking 
about trying the cases, and it is important to try those cases 
that can be tried, not all of them can be tried. And that's why 
I think that this hearing today and this bill is so important 
because during this time the criminal justice system of this 
country let down people like Myrlie Evers and families and 
victims, and truly a whole race of people in this country, the 
system just did not work for those people. And there was also 
the perception and the overwhelming number of cases that people 
didn't care, the system wasn't working because people did not 
want it to work, State officials did not properly investigate 
the crimes and they didn't.
    So I think the fact that we are here today with this bill 
and these cases are going to be examined in a thorough way, in 
a probing way. Those that can be prosecuted will be. The mere 
fact we are here today will be looked at, also sends that kind 
of message that Ms. Evers-Williams was talking about, it is a 
very important message to get out there that we just won't let 
up, justice really means something.
    Mr. Ellison. Quick point before I yield back, Ms. Bender, 
Ms. Evers-Williams, I can't ever express how grateful I am to 
you for your courage and commitment, thank you very much. And 
to Mr. Cohen and Mr. Jones, you know, thank you for carrying 
the fight on, it is just absolutely essential that you do it, 
untold millions are in the debt of all four of you and many 
more than that. Thank you.
    Mr. Scott. I thank all of our witnesses and I mentioned 
earlier, Ms. Williams, as a former branch president of the 
NAACP, and I particularly thank you for your service to that 
organization.
    Without objection all Members have 5 legislative days to 
submit to the Chair written additional written questions for 
the witnesses which we'll forward and ask the witnesses to 
respond as promptly as you can so the answers may be part of 
the record without objection. All Members have 5 legislative 
days to submit any additional materials for inclusion in the 
record. With that the Chair without objection, the hearing is 
hereby adjourned.
    [Whereupon, at 1:38 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Prepared Statement of the Honorable John Conyers, Jr., a Representative 
  in Congress from the State of Michigan, Chairman, Committee on the 
Judiciary, and Member, Subcommittee on the Constitution, Civil Rights, 
                          and Civil Liberties
    For those who did not live through the this period, it is difficult 
to understand the climate of fear and violence that gripped the nation 
during the Civil Rights era. Simply for acting on their ideals, 
innocent people were struck down in the prime of their lives to deliver 
a message of racial hate. These murder cases reflect the most heinous 
of the hundreds of crimes committed against Americans during the Civil 
Rights movement. Most shocking by today's standards, State and local 
law enforcement colluded with the perpetrators of anti-Civil Rights 
violence. Attempts at justice often proved to be a charade and ended 
with jury nullification or tampering by racist citizens' councils.
    For the families of the victims and those who lived through it all, 
the memories are still vivid and affect their daily lives. Today, for 
example, is a significant date, as it marks the 44th anniversary of 
Medgar Evers assassination. His widow joins us today to bear witness to 
the importance of this legislation. Moreover, a major trial is 
currently taking place in Jackson, Mississippi--the trial of James 
Seale, who has been charged with the abduction, beating and drowning of 
two black teenagers, Charles Eddie Moore and Henry Hezekiah Dee, in 
1964.
    Since 1989, 29 Civil Rights era ``cold cases'' have been re-
examined, with 22 resulting in convictions:

        <bulleT]  In 1994, white supremacist Byron De La Beckwith was 
        finally convicted for the 1963 hate crime and murder of NAACP 
        field secretary Medgar Evers. Two all-white juries had 
        previously deadlocked in the late 60s.

        <bulleT]  In 1998, former Klan imperial wizard Sam Bowers was 
        convicted of the 1966 hate crime and firebombing of NAACP 
        leader Vernon Dahmer.

        <bulleT]  In 2002, former Klansman Bobby Cherry was convicted 
        of the hate crime and first-degree murder during the 1963 
        firebombing of a Birmingham church--well-known for the 
        resulting deaths of four Black schoolgirls. His partner in 
        crime, Thomas Blanton Jr., was convicted for this same hate 
        crime in 2001. We are joined today by Doug Jones, the 
        prosecutor in that case.

    For every infamous killing that tore at the South in the 1950s and 
'60s, however, there were many more that were barely noted, much less 
investigated. That is why I support this bill, the Emmet Till Unsolved 
Civil Rights Crime Act. For the more than 100 case identified in 
February by the FBI, there must be a clear and unambiguous statement 
from this Congress that the pursuit of justice shall not rest.
    Although many of the most notorious murders took place in 
Mississippi, racist murderers killed victims throughout the south. 
Examples of some of the unsolved cases include:

        <bulleT]  the 1968 ``Orangeburg Massacre'' at South Carolina 
        State University where state police shot and killed three 
        student protesters;

        <bulleT]  the 1967 shooting death of Carrie Brumfield, whose 
        body was found on a rural Louisiana road;

        <bulleT]  the 1957 murder of Willie Joe Sanford, whose body was 
        fished out of a creek in Hawkinsville, Ga.;

        <bulleT]  the 1946 killing of a black couple, including a 
        pregnant woman, who was pulled out of a car in Monroe, Ga., and 
        dragged down a wagon trail before being shot in front of 200 
        people.

    As one commentator has stated, ``the fact that it has taken more 
than 40 years for justice to be delivered in cases like these speaks 
volumes about power in society, but when we consider that many more who 
committed horrible atrocities and hate crimes during that era may never 
be brought to justice, never serve time for their crimes against other 
human beings, never be asked to atone for their wrongdoings, then we 
begin to understand the power of race.''
    This legislation is important to closing a grim chapter in our 
nation's history; a time when domestic terrorists attempted to derail 
our march toward freedom and equality. For that reason, I believe it is 
important that the perpetrators of these crimes be brought to justice, 
even 40 years late. While justice was delayed for the victims of Civil 
Rights era hate crimes, the fact that we are raising these cold cases 
breathes new life into our justice system. Ultimately, that commitment 
bodes well for our collective future and reconciliation within these 
communities.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
